From which I cannot recover, still buried in the mountain of
papers, briefs, replies, appearances, appeals, so no one ever
finds their way through it, to the violation, the root cause.
Overwhelming tactical advantage.
That is how opposing counsel wants it—buried in chaos.
Whatever it takes to keep me from getting a hearing on the
merits, where actual evidence might be required, and
worse than that, examined.
This is due process, choked to deaath,
right in front of us, under color of law.
Yes, I am acutely aware. Profoundly different.
Yet on a scale from 1 to 10, each is an eleven,
a distinct hole, but the same dyke.
The court gets stuck in molasses,
unable to see beyond the misdirection.
Someone needs to cut through this
Gordian knot. Not detangle it.
Cut through it.
Shortcuts rely on conditions which are true for both paths,
—absent dissent. Easy to forget the rarely noticed conditional,
that is always present, choosing the shorter, more convenient
path, just as sound, except when challenged-assumptions
seldom noted, because they always held, but no longer do.
Dissent makes the soundness of the paths different again,
and the longer, less convenient, less familiar path becomes
required, without notice. Without the benefit of notice,
even the system fails, producing the spectacularly absurd.
Reverse, on due process.
Because full faith and credit does not
apply to hopelessly defective judgments.
Do the right thing. No one else can.

Filed 11/20/20

CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT
In re the Marriage of ROSEMARY and
JAMES SAWYER.

H046558
(Santa Cruz County
Super. Ct. No. FL007773)

ROSEMARY SAWYER,
Respondent,
v.
JAMES SAWYER,
Appellant;
SANTA CRUZ COUNTY
DEPARTMENT OF CHILD SUPPORT
SERVICES,
Appellant.
In 2001, a Minnesota state court ordered appellant James Sawyer to pay
$89,582.15 in child support arrears to his ex-wife, respondent Rosemary Sawyer,1 for
their two children. James was by then living in California, and in 2005 the Minnesota
order was registered for enforcement purposes in Santa Cruz County Superior Court
pursuant to the Uniform Interstate Family Support Act.
i

The trial court order at issue here refers to James’s ex-wife as Rosemary Sawyer.
In some places, the record references her as Rosemary Hildebrandt. For clarity, we refer
to James and Rosemary by their first names. Rosemary has not participated in these
appeals.

In 2018, in connection with registration in California of a renewed judgment from
Minnesota, the trial court in Santa Cruz County stayed enforcement of a portion of
James’s child support arrears determined by the 2001 Minnesota order because the
children had intermittently lived with James between 1993 and 2002. The trial court
found the remainder of the arrears enforceable against James. Both James and appellant
Santa Cruz County Department of Child Support Services (the Department), which has
assisted in the enforcement and collection of James’s child support arrears, have appealed
the trial court’s 2018 order.
The Department contends that the trial court lacked authority under the Uniform
Interstate Family Support Act to stay the arrears owed by James because the 2001
Minnesota order at issue was registered and confirmed in California in 2005, and James
did not timely challenge its registration. We agree and reverse the portion of the 2018
order staying enforcement of $28,890 of the arrears. James appeals the portion of the
trial court’s order finding that the remainder of the arrears ($60,692.15) was enforceable.
We reject his claims of error and affirm that portion of the 2018 order.
I. FACTS AND PROCEDURAL BACKGROUND
A. Background1
James and Rosemary were married from 1978 to 1989 and have two (now adult)
sons together: the elder bom in 1977 (older son) and the younger in 1984 (younger son).
James and Rosemary divorced in Minnesota, and a judgment and decree of dissolution
ending their marriage was entered in that state in January 1989. James was ordered by
the Minnesota court to pay $1,000 per month in child support to Rosemary.
Shortly following the divorce, James moved to Santa Clara County, California.
Thereafter, Rosemary requested assistance from the State of California in enforcing the
2 We take these undisputed background facts from James’s sworn testimony at the
October 23,2018 hearing, which preceded the December 18, 2018 order at issue in these
appeals.
2

Minnesota child support order. In January 1991, child support enforcement proceedings
began in Santa Clara County. As a result of those proceedings, James was either ordered
to or stipulated to pay $12,000 in child support arrears and was ordered to pay $100 per
month in fulfillment of that obligation.
A few years later, in June 1993, older son, then about 16 years old, moved from
Minnesota to California and lived with James until July 1994. James did not seek a
modification of the ongoing child support order after older son moved in with him.
James testified that modifying the support order “wasn’t on [his] radar” at that point and
“it seemed to [him] that the whole accounting of child support would be more sensibly
done at the end rather than in the middle.”
Around 1997, James moved to Santa Cruz County, and the enforcement
proceeding against him was transferred to the Santa Cruz County Superior Court.3 In
1999, younger son moved to California and lived with James for several years.
(

Apparently around this 1999 time period, James asked his Minnesota attorney to notify
the Minnesota court that younger son was living with him and was no longer living with
Rosemary. However, James did not then seek a modification of the ongoing child
support order in the Minnesota court. James testified that his attorney asked or tried to
get Rosemary to sign a stipulation to the effect that younger son was in his primary
custody, but that effort was unsuccessful.
B. Procedural History
1. 2001 Court Proceedings in Minnesota
On February 13,2001, a Minnesota district court issued the child support order
that underlies the appeals before us (the Minnesota 2001 order). Prior to the issuance of
that order, the parties appeared at a hearing in Minnesota in January 2001. Rosemary,

3 We take judicial notice of the 1997 notice of receipt filed in Santa Cruz County
and 1997 motion and order transferring cause.
3

Rosemary’s attorney, and James’s attorney Robert Hajek appeared. James was not
personally present.
The Minnesota 2001 order amended the 1989 judgment and decree of dissolution,
awarded physical custody of younger son to James, and ordered Rosemary going forward
to pay James child support for younger son. The order also addressed die amount of
child support arrears that James owed Rosemary. The order stated that Rosemary had
“alleged child support arrears owing by [James] to [Rosemary] in the amount of
$89,582.15” and declared that “judgment shall be entered on said arrears unless, within
sixty (60) days from the date of this Order, the parties agree that a different amount is
owing, or [James] proceeds before this Court by Notice of Motion and Motion within that
sixty (60) day period.” This arrears amount was apparently not challenged by either
party within the 60 days and, in April 2001, the Minnesota district court entered judgment
against James for child support arrears in the amount of $89,582.15.
2. 2005 Proceedings in California
In 2005, the Minnesota 2001 order was registered in California.4 The notice of
registration reflects that the Santa Cruz County Superior Court clerk sent James a copy of
the order on March 18,2005. The notice advised James that he had 25 days from the
mailing date to request a hearing to contest the validity or enforcement of the registered
order. There is no evidence in the record that James contested or took any court action in
connection with the 2005 registration in California of the Minnesota 2001 order requiring
him to pay $89,582.15 in child support arrears to Rosemary.

4 The Minnesota order that was registered in California was the February 2001
conditional order and not the judgment entered in April 2001. It is not clear on this
record why the April 2001 judgment was not registered in California, but neither party
has raised this issue in the trial court or in this court on appeal. We will therefore
assume, as do the parties, that the February 2001 order was the appropriate order to
register in California.
4

3. 2007-2009 Court Proceedings in Minnesota and 2009 Registration in
California
In 2007, James appeared before a Minnesota child support magistrate to challenge
the 2001 Minnesota order issued by the district court. James sought in the Minnesota
court a determination that he owed no arrears to Rosemary. After various continuances,
James withdrew his motion. Approximately one year later, in late 2008, James again
moved for a determination that he owed no arrears to Rosemary.
In early January 2009, the Minnesota child support magistrate determined that
James’s motion amounted to a motion to vacate the 2001 judgment, decided that it did
not have jurisdiction to vacate a final judgment entered in Minnesota district court, and
dismissed James’s motion. In its written order, the magistrate found that “[bjased upon
the order dated February 13,2001, there was a judgment entered in this matter
determining arrears as of January 31,2001.” The magistrate decided it was foreclosed
from redetermining those arrears and dismissed James’s motion.
According to the Minnesota Court of Appeals, which affirmed the child support
magistrate’s order in an unpublished opinion, James “moved for a determination that he
owed no arrears to [Rosemary] so that the state of California would terminate
proceedings against him to collect the 2001 Minnesota judgment.” (Sawyer v. Sawyer
(Minn.Ct.App., Sept. 22,2009, No. A09-0222) [2009 WL 2998093].) The Court of
Appeals described James’s motion as an attempt “to relitigate an issue that was resolved
eight years ago by the district court.” (Id. at p. 5.)
The 2009 order issued by the Minnesota child support magistrate was registered
that year for enforcement in Santa Cruz County Superior Court. The court clerk served
James with the registration statement and a copy of the January 2009 order. According to
the 2009 notice of registration, James then owed Rosemary $98,476.19 in child support
arrears. There is no evidence that James contested or took any court action in California
in connection with the 2009 registration.
5

4. 2013-2018 California Trial Court Proceedings
In 2013, the Department filed in Santa Cruz County Superior Court a request for
an order to show cause and affidavit for contempt against James related to his failure to
make child support payments. James moved in the Santa Cruz County Superior Court for
equitable relief, claiming the arrears calculation in Minnesota was incorrect. James
requested that the trial court order an “accounting” and “credit” him with payments he
made. James contended that the Department had failed “to reconcile [James’s] payments
and credits” with the Minnesota 2001 order and asserted such a reconciliation would have
“demonstrated satisfaction of the original child support order.” James requested that the
trial court order the Department to stop collecting any payments on the alleged arrears.
At a hearing in March 2014, the trial court denied James’s request to recalculate
the arrears previously adjudicated in Minnesota and for equitable relief. The trial court
stated that it did “not believe that California has subject matter jurisdiction over the issue
that has already been determined by another forum” and was required to “defer to that
judgment.”
Nearly four years later, in 2018 the clerk of the Santa Cruz County Superior Court
notified James that a new Minnesota order, titled “Notice of Entry and Docketing of
Judgment,” had been registered in the superior court. The Minnesota order stated James
owed $139,990.21 in child support arrears as of May 21,2018.5 James requested a
hearing in Santa Cruz County Superior Court and sought vacatur of the registration of the
order.

5 The Department in its briefing asserts that the 2018 judgment was a “renewal” of
judgment, as a judgment otherwise lapses and becomes unenforceable after 10 years
pursuant to Minnesota law. In 2018, the Department’s position before the trial court was
that the $139,990.21 stemmed from the $89,582.15 established at the January 29,2001
hearing in Minnesota and included interest that had since accrued pursuant to Minnesota
law which calculated interest by the prime market rate minus certain credits for payments
James had made.
6

In his opposition to enforcement of the 2018 Minnesota support order, James
asserted the arrears figure of $89,582.15 was overstated, he had “no warning” that the
January 29,2001 hearing would be used to determine arrears, and his attorney in
Minnesota “did not directly communicate to him the intentions of the Minnesota family
law court referee.” James stated he only “first became aware of the $89,582.15 arrears
judgment several years after it was entered, perhaps around 2005, when the Minnesota
Department of Child Support sought to register the judgment in California.”
The Department submitted a written response in which it argued James was barred
from attacking the amount of arrears determined in 2001 because he had failed to timely
challenge the registration of that judgment in California in 2005.6 The Department
maintained that James could only contest the arrears that accrued between the last
registration (in 2009) and the current registration (in 2018) but had provided no evidence
of any payments made in that period that the Department had not credited to him.
A contested hearing occurred before the trial court on October 23,2018, presided
over by the same judicial officer who had in 2014 denied James’s equitable request to
recalculate arrears for the same time period. At the October 23,2018 hearing, James
testified about various topics, including the time periods that his sons lived with him in
California. James stated he had retained Bob Hajek, a lawyer in Minnesota, to help
handle the proceedings in Minnesota, but James was not aware in 2001 of the January 29,
2001 hearing. James asserted he did not learn about the 2001 hearing or the arrears
amount until several years later. He could not recall exactly when he learned about the
over $89,000 in arrears but “it had to have been” in 2005 or 2006. James detailed his
efforts in 2007 and 2008 in Minnesota to overturn the arrears calculation, which included
his unsuccessful appeal to the Minnesota Court of Appeals.

6 Rosemary did not participate in the 2018 proceedings.
7

In the course of the 2018 hearing, the trial court found that there was no merit to
James’s claim that the Minnesota court did not have personal jurisdiction over him,
despite James’s testimony that he was unaware of the 2001 proceedings, because James
had then been represented by an attorney who participated in them. Turning to his claim
that die arrears figure was incorrect, die trial court stated it was “inclined to grant some
equitable relief’ and believed it had the authority to do so pursuant to its powers under
California law to enforce the Minnesota judgment.
On December 18,2018, the trial court issued the written order at issue on appeal.
The trial court denied James’s request to vacate registration of the support order filed on
June 28,2018 but ordered the Department “to stay partial enforcement of the registered
orders, according to the attached findings.” The attached findings consist of a one-page
chart itemizing the arrears amounts stayed by the trial court. The trial court’s findings
include that the Minnesota order was signed on February 13,2001 in the amount of
$89,582.15 and was “subsequently registered in California.” The attachment details the
particular years that either older son or younger son lived with James and the portion of
the total arrears that would be stayed for that time period. Adding these various amounts,
the trial court ordered that $28,890 in arrears be stayed.
The trial court’s order stated that $28,890 in arrears was “stayed on equitable
grounds during periods of time father had sole custody of children” and that “California
courts are free to apply its own law regarding the methods by which the judgment is to be
enforced.” The trial court concluded that the balance of the $89,582.15 (that is
$89,582.15 minus $28,890, or $60,692.15) could be enforced against James.
Both the Department and James timely appealed the trial court’s December 18,
2018 order.
n. DISCUSSION
“A trial court child support order is reviewed under the abuse of discretion
standard of review, and the trial court’s findings of fact in connection with a child support
8

order under the substantial evidence standard of review. [Citation.] ‘To the extent the
trial court’s decision reflects an interpretation of a statute, it presents a question of law
that we review de novo.’ ” (In re Marriage ofZimmerman (2010) 183 Cal.App.4th 900,
906-907.)
The Department argues the trial court lacked authority to award James equitable
relief by staying enforcement of a portion of the arrears. In his appeal, James contends
that the trial court erred (1) by refusing to stay the remainder of the arrears determined in
Minnesota because the Minnesota court did not have personal jurisdiction over him when
it entered the 2001 Minnesota order and (2) by failing to continue the proceeding to
permit him to present additional evidence about all the equitable “off-sets” he was due.
We begin our consideration of these appeals with the applicable provisions of
California law implementing the Uniform Interstate Family Support Act.
A. The Uniform Interstate Family Support Act
The Uniform Interstate Family Support Act (UIFSA), now codified at Family
Code sections 5700.101 et seq.,7 was enacted in California in 1997.8 (See County ofLos
Angeles Child Support Services Dept v. Superior Court (2015) 243 Cal.App.4th 230,
237.) The UIFSA “ ‘governs, inter alia, the procedures for establishing, enforcing and
modifying child support orders in cases in which more than one state is involved.’ ” (In
re Marriage of Connolly (2018) 20 Cal.App.5th 395, 402.) “The goal of UIFSA is to
ensure that ‘ “only one valid support order may be effective at any one time” [citation],
even though the parties and their children may move from state to state.’ ” (Ibid.)
“Together with the Federal Full Faith and Credit for Child Support Orders Act
(FFCCSOA) (28 U.S.C. § 1738B), the UIFSA ensures that in every case only one state
7 Unspecified statutory references are to the Family Code.
8 Prior to 2016, the UIFSA was codified at sections 4900 et seq. The pertinent
provisions relating to the registration and confirmation of out-of-state child support
orders have remained largely unchanged since the UIFSA’s adoption in 1997. (Compare
§§ 5700.606-5700.608, with former §§ 4955-4956.)
9

exercises jurisdiction over child support at any given time.” (In re Marriage of Crosby &
Grooms (2004) 116 Cal.App.4th 201,206.)
The UIFSA allows a support order from another state to be registered for
enforcement in California. (§ 5700.601 [formerly § 4950]; Scheuerman v. Hauk (2004)
116 Cal.App.4th 1140,1143-1144.) When the arrears order at issue here was registered
in California in 2005, former section 4955 (now codified at section 5700.606) stated:
“(a) A nonregistering party seeking to contest the validity or enforcement of a registered
order in this state shall request a hearing within 20 days after notice of the registration.
The nonregistering party may seek to vacate the registration, to assert any defense to an
allegation of noncompliance with the registered order, or to contest the remedies being
sought or the amount of any alleged arrearages pursuant to Section 4956. []J] (b) Ifthe
nonregistering partyfails to contest the validity or enforcement of the registered order in
a timely manner, the order is confirmed by operation of law. [TO (c) If a nonregistering
party requests a hearing to contest the validity or enforcement of the registered order, the
registering tribunal shall schedule the matter for hearing and give notice to the parties of
the date, time, and place of the hearing.” (Italics added.)
Section 5700.607, subdivision (a), sets forth the sole grounds on which a party can
seek to vacate registration of a support order. Two of those grounds are that “the issuing
tribunal lacked personal jurisdiction over the contesting party” and that “full or partial
payment has been made.” (§ 5700.607, subd. (a)(1), (6).)9
9 Former section 4956 contained these same two grounds and stated in full: “(a) A
party contesting the validity or enforcement of a registered order or seeking to vacate the
registration has the burden of proving one or more of the following defenses: ffl] (1) The
issuing tribunal lacked personal jurisdiction over the contesting party. [TO (2) The order
was obtained by fraud, [TO (3) The order has been vacated, suspended, or modified by a
later order, [f] (4) The issuing tribunal has stayed the order pending appeal, flj] (5)
There is a defense under the law of this state to the remedy sought. [TO (6) Full or partial
payment has been made, [TO (7) The statute of limitation under Section 4953 precludes
enforcement of some or all of the arrearages. [TO (b) If a party presents evidence
10

Section 5700.608 (formerly section 4957) states: “Confirmation of a registered
support order, whether by operation of law or after notice and hearing, precludes further
contest of the order with respect to any matter that could have been asserted at the time of
registration. ”10
B. The Department’s Appeal
The Department contends that, because James failed to timely challenge the 2005
and 2009 registrations in California, the amount of arrears reflected in the 2001
Minnesota order was “confirmed by operation of law” under the UIFSA, precluding any
further adjudication by the trial court of the preregistration amount of arrears.11
We agree that the trial court erred when it reduced the amount of James’s child
support arrears as determined by the Minnesota 2001 order. We reach this conclusion
based on a plain reading of section 5700.608, which states that “[confirmation of a
registered support order, whether by operation of law or after notice and hearing,
precludes further contest of the order with respect to any matter that could have been
asserted at the time of registration” (italics added).

establishing a full or partial defense under subdivision (a), a tribunal may stay
enforcement of the registered order, continue the proceeding to permit production of
additional relevant evidence, and issue other appropriate orders. An uncontested portion
of the registered order may be enforced by all remedies available under the law of this
state, [f] (c) If the contesting party does not establish a defense under subdivision (a) to
the validity or enforcement of the order, the registering tribunal shall issue an order
confirming the order.”
10 The only substantive difference between section 5700.608 and section 4957 is
that the phrase “registered order” was changed to “registered support order.” This change
is immaterial to the legal issues posed by these appeals.
11 Because we agree with the Department on this point, we do not reach its
alternative arguments that the doctrine of res judicata bars the relitigation of arrears owed
through the end of 2001 based on James’s unsuccessful litigation of this issue in
Minnesota and that the trial court’s order violates the full faith and credit clause of the
United States Constitution.

11

There is no dispute that the Minnesota 2001 order was registered in California in
2005. Regarding the confirmation of the order, James does not contest that he was given
notice that the order was registered. The record reflects that the court clerk served James
with the notice in March 2005 that advised him that he must request a hearing within 25
days to challenge the validity or enforcement of the registered order. James’s testimony
in 2018 was not inconsistent with that notice. He testified that he could not recall exactly
when he learned about the over $89,000 in arrears but “it had to have been either [the]
2005 time frame” when “things started happening that I think might have informed me”
or sometime in 2006.
James could have made a timely challenge to the 2005 registration in California as
set forth in former section 4955, but he did not.12 The record does not reflect any such
challenge, nor did James ever testify he made any such challenge. Rather, he testified
that, beginning in 2007, he unsuccessfully sought in Minnesota to challenge the 2001
Minnesota order.
Therefore, pursuant to former section 4955, subdivision (b), the 2001 Minnesota
order became confirmed in California by operation of law. There is no indication that the
trial court’s 2018 order “to stay partial enforcement” of the arrears is anything other than
a permanent reduction of James’s child support arrears. However, James was precluded
by section 4957 (now section 5700.608) from contesting the arrears, and the trial court
did not have the authority to effectively lower the arrears James owed from that amount
set by the Minnesota court. (§ 5700.608.)
While the parties do not cite and we have not found any California authority
applying the UIFSA to similar facts, our conclusion is consistent with that reached by the
12 Former section 4955 provision of the UIFSA has been renumbered to section
5700.606 and, although certain language changed, the changes are not material to our
analysis here. (See § 5700.606.) Section 5700.606, subdivision (b), provides that if “the
nonregistering party fails to contest the validity or enforcement of the registered support
order in a timely manner the order is confirmed by operation of law.”
12

North Dakota Supreme Court in Smith v. Hall (N.D. 2005) 707 N.W.2d 247. In Smith, a
father attempted to vacate a registered and confirmed child support order years after the
order was registered, arguing it was void for lack of personal jurisdiction. Relying on the
UEFSA provisions similar to the language in California’s, including that

U «

[confirmation

of a registered order... precludes further contest of the order with respect to any matter
that could have been asserted at the time of registration’ ” {id, at p. 250), the Supreme
Court of North Dakota held father was precluded from contesting the registration on the
grounds of lack of personal jurisdiction.
James has not established that he could not have asserted at the time of registration
his claim that he should have been credited for the time his sons lived with him in the
determination of his child support arrears. The UIFSA expressly states that it is a defense
to registration that full or partial payment has been made. (See de Leon v. Jenkins (2006)
143 Cal.App.4th 118, 126 [noting that “[t]he only pertinent objection allowed by the
statute—that ‘[f]ull or partial payment has been made’—would only apply to an obligor
contending that arrears are overstated”]; Willmer v. Willmer (2006) 144 Cal.App.4th 951,
960 [“It is the obligor’s burden to prove one of the defenses set forth in section 4956,
subdivision (a).”].) Because he failed to timely raise this defense to the 2005 registration
of the Minnesota 2001 order, section 5700.608 precludes James from asserting the same
claim over a decade later.
We recognize that, as general matter under California family law, California
courts may apply an equitable approach and deny the enforcement of arrears where the
parent otherwise contributed to the care of the child such as providing a home for the
child. (See In re Marriage of Wilson (2016)4 Cal.App.5th 1011, 1016; Helgestad v.
Vargas (2014) 231 Cal.App.4th 719,735 [“The essence of the equitable credit approach
is that in-the-home support during a period of living with the children can count against
an ongoing support order that is framed only in monetary terms.”].)

13

However, we are not persuaded that this general equitable approach or the
decisions cited by James support the trial court’s order. In exercising its discretion, a trial
court may not ignore express statutory requirements. (See S.C. v. G.S. (2019) 38
Cal.App.5th 591,600.) Merely by citing to equitable principles, the trial court did not
gain the authority to do indirectly what the applicable statutes prohibit it from doing
directly. The trial court’s ruling allowed James to contest and litigate the issue of the
amount of arrears James owed at the time of the January 29,2001 hearing, years after the
2001 Minnesota order was confirmed under the UIFSA. Because the trial court’s
exercise of equitable credit conflicted with the clear statutory language of sections
5700.606 and 5700.608, it lacked authority to grant this relief.
James cites no legal authority interpreting the UIFSA that supports the trial court’s
order. To bolster his contention that the trial court properly exercised its equitable
discretion to not enforce certain arrears in light of its finding that he took care of his sons,
James (as did the trial court in its December 18, 2018 order) cites to Keith G. v. Suzanne
H. (1998) 62 Cal.App.4th 853 (Keith G.) md In re Marriage ofTrainotti (1989) 212
Cal.App.3rd 1072,1075 (Trainotti). However, these authorities do not establish that a
trial court may permanently stay enforcement of a portion of arrears, as occurred in this
case.
In Keith G., the Court of Appeal affirmed a trial court’s “setoff’ among conflicting
inter-state child support orders. (Keith G., supra, 62 Cal.App.4th at pp. 858-859.) The
court noted that “[allowing the setoff does not reduce or eliminate the amount of the
arrearages” but rather “only affects the manner of collection in California,” and that
“allowing the setoff would not frustrate the purpose of either support order.” (Id. at p.
860.) Here, by contrast there are no competing support orders at issue, and the trial
court’s 2018 ruling effectively reduced James’s arrears by approximately $28,000,
directly frustrating enforcement of the Minnesota 2001 order.

14

Trainotti is even less relevant. That 1989 decision, which considered whether a
father had otherwise satisfied his child support obligation by providing a home and
support to the child, predates California’s adoption of the UIFSA and did not consider a
foreign judgment which could not be modified under applicable statutory law. (See
Trainotti, supra, 212 Cal.App.3d at pp. 1075-1076.)
In short, the trial court’s order staying enforcement of $28,890 of the 2001
Minnesota order violated sections 5700.606,5700.607, and 5700.608, and was
unsupported by any applicable case law interpreting the UIFSA. Because the trial court
lacked authority to modify the 2001 Minnesota order, we reverse that portion of the
December 18,2018 order.
C. James’s Appeal
James appeals the portion of the trial court’s December 18,2018 order that found
that $60,692.15 of the arrears established in the 2001 Minnesota order was enforceable
against him.13 James raises two general claims of error. First, James contends the trial
court should have stayed the entire amount of arrears (that is, $89,582.15) because the
Minnesota court lacked personal jurisdiction over him. Second, James argues that the
trial court in California denied him the opportunity to “present the full range of evidence
supporting the full range of equitable relief that he was due.”
1. Personal Jurisdiction
We first turn to James’s personal jurisdiction claim. In the 2018 proceedings in
California, James presented to the trial court his claim that the Minnesota court lacked
personal jurisdiction over him. The trial court found against James on that point,
13 The trial court’s order stated the balance to be enforced by California was
$60,692.15 (representing $89,582.15-$28,890) “PLUS prime interest calculated under
Minnesota law, accruing from April 2001 until the present time, LESS payments made
each calendar year since April 2001 totaling $36,673.59.” The parties do not raise any
claims related to the prime interest rate applied by the trial court or its findings that James
made $36,673.59 in payments from April 2001 until the present, and we therefore do not
review those aspects of the order.
15

emphasizing that James was represented by an attorney in the Minnesota proceedings.
On appeal, we understand James to argue that the Minnesota court’s assertion of personal
jurisdiction over him violated his due process rights guaranteed by the Fourteenth
Amendment of the U.S. Constitution. (See Walden v. Fiore (2014) 571 U.S. 277,283
(Walden).)
The Department responds that the UIFSA precludes him from now contesting the
2001 Minnesota order on the basis of a lack of personal jurisdiction. We agree. As noted
above, section 5700.607, subdivision (a)(1), of the UIFSA states that lack of personal
jurisdiction is one of the grounds on which a nonregistering party can seek to vacate the
registration of a support order. (See also former section 4956, subd. (a)(1).) However,
that challenge must be made in a timely manner. Based on the provisions of the UIFSA
discussed above, James was precluded from raising the jurisdictional issue in California
in 2018, over a decade after the 2001 Minnesota order was registered and confirmed in
California.
Moreover, as the trial court found, there is no merit to James’s claim that the
Minnesota court did not have jurisdiction over him. The United States Supreme Court
has explained, applying longstanding precedent, that “[although a nonresident’s physical
presence within the territorial jurisdiction of the court is not required, the nonresident
generally must have ‘certain minimum contacts ... such that the maintenance of the suit
does not offend “traditional notions of fair play and substantial justice.

(Walden,

supra, 571 U.S. atp. 283.)
Here, it is undisputed that the child support action in Minnesota arose directly out
of James’s contacts with that state, where he and Rosemary both were living during
marriage and when they dissolved the marriage. The record reflects Rosemary and the
children continued to reside in Minnesota after James moved to California. James
admitted that he had retained counsel to represent him in the Minnesota proceedings, and
the record reflects that James’s counsel appeared for him at the January 29,2001 hearing.
16

Nothing in the record before us reflects that James ever asserted a lack of personal
jurisdiction in Minnesota, where he litigated other substantive issues.
James stresses here that, even though his counsel was at the January 2001 hearing,
James did not have personal notice of the hearing and its outcome. But James does not
explain how that circumstance undermines the Minnesota court’s personal jurisdiction
over him. That his attorney may or may not have informed him of a particular hearing in
the Minnesota family court proceedings is immaterial. (See Link v. Wabash R. Co.
(1962) 370 U.S. 626, 633-634.) Given that his chosen representative appeared, there is
no dispute that James had legal notice of the January 29, 2001 hearing. We reject his
challenge to the 2018 order based on a lack of personal jurisdiction in Minnesota.
2. Presentation of Additional Evidence
Turning to James’s second claim, James contends that the trial court should have
continued the 2018 proceeding to give him an opportunity to submit a “full range” of
evidence about the equitable offsets he was due. We see nothing in the record
demonstrating that James informed the trial court that he wished to present additional
evidence. In any event, James cannot show any prejudice from the trial court’s failure to
grant a continuance to allow him to present additional evidence because the trial court
lacked authority to modify the 2001 Minnesota order. (See In re Marriage of Falcone &
Fyke (2008) 164 Cal.App.4th 814, 822.)
For the reasons explained above, we affirm the portion of the trial court’s
December 18,2018 order that ordered enforcement of the balance of the arrears set forth
in the 2001 Minnesota order.
in. DISPOSITION
The December 18,2018 order is reversed. The trial court is directed to enter a
new order that reinstates enforcement of the $28,890 arrears stayed in its December 18,
2018 order. In all other respects, the order is affirmed. In the interests of justice, the
Department shall recover its costs on appeal. (Cal. Rules of Court, rule 8.278(a)(5).)
17

s'*

Danner, J.

WE CONCUR:

Greenwood, P .J.

Grover, J.

H046558
Santa Cruz Department of Child Support Services v. Sawyer

Trial Court:

Trial Judge:

Santa Cruz County Superior Court
Superior Court No. FL007773
Hon. Jana Kast-Davids

Counsel for Appellant Santa Cruz
County Department of Child Support
Services:

Xavier Becerra
Attorney General of California
Cheryl L. Feiner
Senior Assistant Attorney General
Jennifer Kim
Acting Senior Assistant Attorney General
Linda M. Gonzalez
Supervising Deputy Attorney General
Gregory D. Brown
Supervising Deputy Attorney General
Jennevee H. DeGuzman
Deputy Attorney General

Counsel for Appellant James Abbott
Sawyer:

Corey Evan Parker
Berangere Allen-Blaine
The Appellate Law Firm

No appearance for Respondent

H046558
Santa Cruz Department of Child Support Services v. Sawyer

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/disposition.cfm?...

Appellate Courts Case Information

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

I Change court

Supreme Court
Disposition
SAWYER, MARRIAGE OF
Division SF
Case Number S266340

Only the following dispositions are displayed below: Orders Denying Petitions, Orders
Granting Rehearing and Opinions. Go to the Docket Entries screen for information regarding
orders granting review.
Case Citation:

none

j

Date

Description
J

03/10/2021

Petition for review denied

:

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy

1 of 1

© 2021 Judicial Council of
California

6/11/2021, 2:19 PM

https://appellatecases.courtinfo.ca.gov/search/case/disposition.cfin7d...

California Courts - Appellate Court Case Information

Appellate Courts Case Information
| Change court^ [||

6th Appellate District
Disposition
Sawyer v. Sawyer et al.
Case Number H046558
|

Description:

Reversed & Remanded to trial court w/directions

i

Date:

11/20/2020

!

Disposition Type:

Final
The December 18, 2018 order is reversed. The trial court

!

is directed to enter a new order that reinstates
enforcement of the $28,890 arrears stayed in its
December 18, 2018 order. In all other respects, the order

i

!
I

is affirmed. In the interests of justice, the Department
shall recover its costs on appeal. (Cal. Rules of Court,
rule 8.278(a)(5).) (AMD, MJG, AMG)
Publication Status:

Signed Published

Author:

Danner, Allison M.

Participants:

Grover, Adrienne M. (Concur)
Greenwood, Mary J. (Concur)

Case Citation:

none

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of
Use | Privacy

1

©2021 Judicial Council of California

1.^1 T*"K K

1
2
3

SUPERIOR COURT OF THE STATE OF CALIFORNIA

4

COUNTY OF SANTA CRUZ

5

DEPARTMENT D

6

BEFORE THE HONORABLE JANA KAST-DAVIDS, JUDGE

7
8
9
10

ROSEMARY CATHERINE HILD,
Petitioner,
vs.

Case No. FL007773

JAMES ABBOTT SAWYER,
Respondent.

11

/

12
13
14

REPORTER'S TRANSCRIPT OF PROCEEDINGS

15

HEARING RE REGISTRATION OF SUPPORT ORDER

16

October 23, 2018

17
18

APPEARANCES:

19
20

For the Petitioner:
DCSS

LINDA KISSINGER,
Attorney at Law

For Respondent:

KENNETH AZEVEDO,
Attorney at Law

Reported by:

OSCAR A. MORENO,
CSR 3441

21
22
23
24
25
26

253

1
2
3

INDEX

4
Direct

Cross Redirect Recross

5
- 6

WITNESSES:

7

For the Respondent:

8

James Abbott Sawyer

258

281

9
10
11

EXHIBITS:

(Premarked)

12

ID

EV

Petitioner's
13
14

1
2

Filed documents re contempt
Case Balance History

15
Defense
16
A

Son's School Record/
Letter from Whitehouse

264

287

18

B

Misc documents (2 pages)

268

287

19

C

Letter from former attorney

271

287

17

20
21
22
23
24
25
26

Court

254

1
2

Watsonville, California

3

October 23, 2018

PROCEEDINGS

4
5

THE COURT:

Okay.

Let's go on the record please,

6

it's the matter of Sawyer versus Sawyer Case No. FL007773.

7

Appearances, please.

8
9

MS. KISSINGER:

Linda Kissinger for the

Department of Child Support Services.

10

MR. AZEVEDO:

11

THE COURT:

Ken Azevedo for James Sawyer.
And Mr. Sawyer is also present.

We have

12

two matters on this morning.

13

registration — the request for a hearing regarding

14

registration of support order that was filed on June 28th,

15

2018 and line 2, the contempt that is trailing the

16

registration issue.

17

We have line one regarding the

With regards to the registration issue I see that

18

Mr. Azevedo on behalf of Mr. Sawyer did file points and

19

authorities on August 18^ .

20

October 18th and the Department of Child Support filed a

21

reply brief — what's the filing date of that?

22

the courtesy copy in front of me.

23

MS. KISSINGER:

24

THE COURT:

25
26

His signatures — yes,

I just have

Probably yesterday.

Mr. Azevedo, did you get a copy of the

reply brief?
MR. AZEVEDO:

I did.

I don't think I got it

255

1

yesterday.

I might have gotten it a few days ago.

2

MS. KISSINGER:

3

MR. AZEVEDO:

4

MS. KISSINGER:

5
6
7

Friday?
Yeah.
I did it on Friday so it was

probably filed on Monday.
And for clarification is Mr. Azevedo representing
Mr. Sawyer on the registration issue?

8

MR. AZEVEDO:

9

THE COURT:

That's my understanding.
Okay.

So, the request for a hearing

10

regarding registration of the order, the order that we're

11

referring to for clarity is an order that came out of

12

Minnesota originally.

13

that order was originally administered —

14

If the Department could clarify when

MS. KISSINGER:

Yes.

The registration that's being

15

challenged is the renewal of judgment that was filed on

16

May 21st 2018, registered here on June 25 th, 2018.

17

THE COURT:

Okay.

And there are various grounds

18

checked in support of Mr. Sawyer's request to have the

19

registration vacated.

20

address each issue separately to make a clean record on the

21

Court's ruling.

22

have personal jurisdiction over Mr. Sawyer and I believe

23

according to the points and authorities filed on

24

October 18th — I'll defer to you, Mr. Azevedo, if you want

25

to state the basis for that ground that the Court which issued

26

the order, that Minnesota didn't have personal jurisdiction

For simplicity's sake I think we should

The first round is that this Court did not

256

1
2

over him.

Are you still proceeding on that ground?
MR. AZEVEDO:

Yes, it's our position that Mr. Sawyer

3

was never given an opportunity to challenge the $89,000

4

judgment that was issued against him in 2001.

5

He did not have notice of that proceeding and was

6

not given an opportunity to challenge anything that was

7

involving that $89,000 judgment and therefore the Court

8

violated procedural due process in making that ruling without

9

him either being present, having an opportunity to contest it.

10

And I cite to the case of Griffin versus Griffin from the

11

United States Supreme Court in my points and authorities that

12

suggests in a similar situation the United States Supreme

13

Court held that the receiving state did not have to give full

14

faith and credit to a New York judgment where the aggrieved

15

party did not have an opportunity to defend themself in the

16

New York proceedings.

17
18

THE COURT:

Do you want to call Mr. Sawyer as a

witness to support those statements?

19

MR. AZEVEDO:

20

MS. KISSINGER:

I intended to, yes.
Well, Your fronor, I don't think it's

21

relevant at this point because that 2001 order has already

22

been registered for enforcement.

23

He did have an opportunity to address the $89,000,

24

he was represented by counsel at the time, he had a 60-day

25

window to file a new motion.

26

state of Minnesota trying to attack the judgment and then

He filed two motions in the

I*

257

1

filed an appeal all of which were denied.

2

that — we can't attack that judgment here.

3

We cannot accept

The only issue before the Court today is whether or

4

not the registration at the renewal of judgment is valid to be

5

enforced here not the $89,000 judgment from 2001.

6
7
8
9
10
11

THE COURT:

Mr. Azevedo, response to Ms. Kissinger's

statement.
MR. AZEVEDO:

Well, the renewal of judgment is based

on the original judgment of $89,000.

There was an effort to

register that I believe in 2005.
I don't believe Mr. Sawyer had an opportunity in

12

2005 to challenge that.

13

briefly served with notice of that registration so it all goes

14

back to this 2001 decision in the Minnesota court.

15

I'm not quite sure that he was

The $139,000 figure is not valid if the $89,000

16

figure was not valid so I think it's all inter-connected and I

17

think it's kind of hard to say you can only challenge one and

18

not the other.

19

And unfortunately Mr. Sawyer tried to redress his

20

grievances in the state of Minnesota and he was not given an

21

opportunity in that state to raise these issues before the

22

Court in Minnesota.

23

much time has passed.

24

he's been trying to have a forum somewhere where he can

25

address his issues and hopefully he wants to have an

26

opportunity to do that today here before this Court.

He was basically told, "Sorry, it's too
We're not going to listen to you" and

>.

258

1

THE COURT:

I'm trying to weigh the best way to

2

approach each of these grounds and I hear the Department's

3

position, but I as a bench officer am responsible to respond

4

to each and every ground alleged and so finding facts in

5

support or not in support of that.

6

like hear your evidence for that personal jurisdiction ground,

7

so I can make a ruling.

8

MR. AZEVEDO:

9

So I call Mr. Sawyer.

So at this time I would

Okay.

10

THE COURT:

11

Mr. Sawyer, if you could please come to the witness

12

Yes.

stand and remain standing so you can take an oath.

13
14

JAMES ABBOTT SAWYER,

15

having been duly sworn, testified as follows:

16
17

DIRECT EXAMINATION

18
19

BY MR. AZEVEDO:

20

Q.

Sir, go ahead and state your name for the record.

21

A.

James Sawyer.

22

Q.

Mr. Sawyer, how old are you?

23

A.

62.

24

Q.

In 1978 did you marry Rosemary?

25

A.

Yes.

26

Q.

And at that time she was known as Rosemary Sawyer?

/

259

1

A.

After the marriage, yes.

2

Q.

Do you know what name she goes by now?

3

A.

I do not.

4

Q.

How old is Rosemary?

5

A.

She would be 67.

6

Q.

You had two children with Rosemary?

7

A.

Yes.

8

Q.

And one is Theodore or Ted?

9

A.

Um-hmm, yes.

10

Q.

How old is Ted?

11

A.

Forty-one.

12

Q.

The other son is Jameson?

13

A.

Yes.

14

Q.

How old is Jameson now?

15

A.

Thirty-four.

16

Q.

You were divorced from Rosemary in 1989?

17

A.

I believe the final decree was January of '89 if I

18

recall.

19

Q.

20

As a result of the divorce you were ordered to pay

child support totaling $1,000?

21

A.

Correct.

22

Q.

And this was in the state of Minnesota?

23

A.

Yes.

24

Q.

How did that 1,000-dollar figure come about?

25

A.

It was essentially a rerun of an earlier-separation.

26

The number was arrived at because — during the separation

261

1

A.

Yes.

2

Q.

Thereafter Rosemary sought to have California

3

enforce the child support order for Minnesota; is that

4

correct?

5

A.

Yes.

6

Q.

And in January of 1991 there was a proceeding in the

7

Santa Clara County Superior Court regarding that; is that

8

correct?

9

A.

Yes.

10

Q.

And once again you were ordered to pay the. thousand

11

dollars in child support?

12

A.

Correct, yes.

13

Q.

Was that $1,000 in child support allocated between

14

your two sons?

15

A.

No.

16

Q.

And it wasn't allocated in Minnesota either?

17

A.

No.

18

Q.

The $1,000 in child support was retroactive to

19

Well, no, there was no verdict to that effect.

January 1st of 1991?

20

A.

Right.

21

Q.

At that time Ted was almost 14 years old?

22

A.

Yes.

23

Q.

And Jameson was almost seven years old?

24

A.

Um-hmm.

25

Q.

In April of 1991 you were ordered — or you

26

stipulated to pay $12,000 in child support arrears?

I

*

1

1

COURT OF APPEAL OF. THE STATE OF CALIFORNIA

2

FOR THE: SIXTH: APPELLATE DISTRICT

3
4

ROSEMARY CATHERINE HILD i.

1
)

5
6
7
8

PIaintIff/Respondent,
■

VS .

JAMES ABBOTT SAWYER,
Defendant/Appellate.

)
)
)'
)
)
)
)

: No. FL007773
H046558

9
10

REPORTER1 S TRANSCRIPT ON APPEAL

11
j

12:

P)\

March 5, 2014
From a Judgment of the Superior Court
For the County of Santa Cruz

13
14

BEFORE HONORABLE COMMISSIONER JANA KAST-DAVIDS

IS
16

APPEARANCES:

17

PIaintiff/Respondent:

JENNEVEE HAN DeGUZMAN
DOJ Attorney General1s Office
1300 I Street, Suite 125:
Sancramento, CA 94244

Defendant/Appellant*

COREY PARKER, No. 295317
1230 Roseerans Ave
Stuite 300
Manhattan Beach, CA 90266

Ii

PATRICIA A. BOYD
CSR 9189

*

18
19:
20
21
Official Court Reporter:
22

!

S

ti
I

i

I
v

23
24
25

March 5, 2014
Volume 1
Pages 1 through 11/250

|

1

I

5.

2

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

COUNTY OF SANTA CRUZ

3

BEFORE COMMISSIONER JANA KAST-DAVIDS

4
5

THE DEPARTMENT OF CHILD
SUPPORT SERVICES,

6
Plaintiff,
7
vs.
8
JAMES ABBOTT SAWYER,
9

)
)
)
)
)
)
)
)
)

No.

F007773

Defendant.
10

)

11
i

12
13
14

REPORTER'S TRANSCRIPT OF PROCEEDINGS

15

March 5th, 2014

16
17
18

<
i

19

I

20

APPEARANCES:

21

For the Department of:
Child Support Services

22
For the Defendant:
23

if
EILEEN MADEIRA-CORREA
Attorney at Law

I

MITCHELL PAGE
Attorney at Law

i

1

PATRICIA A. BOYD
CSR 9189

f
I

i

S

\

I

i

24
25

Official Court Reporter:

I

■

■;

3

1

Watsonville, California

March 5th, 2014

2

—oOo—

3

P R 0 C E E D I N G S

4
5
6

Line 29 on page 10.

Mr. Sawyer.

7

THE COURT:

8

MS. MADEIRA-CORREA:

9

l

MS, MADEIRA-CORREA:

Okay.

a responsive brief.

Go ahead.
This is his motion.

I filed

And at the request of the Court I

10

attached -- filed subsequently February 13th a summary

11

of the authorities and exhibits.

12
13

THE COURT:

Yeah.

Let me look at it again during

the break, okay?

14

MR. PAGE:

15

THE. COURT:

16

(Other matters heard not herein transcribed.)

17

THE COURT:.

18

Okay.

19

That's fine.
And we'll take a break, 3:15, 3:20.

Line 29, page 10.

So I have read everything again and again.

i

And Ms. Madeira-Correa, I see you have your Summary of
;

20
21
22
23

f

Exhibits.
Are you requesting the Court to take judicial

t
i

i

notice of them?
MS. MADEIRA-CORREA:

Of them, yes.

I
I
i

24
25

THE COURT:

Okay.

So to summarize, this, is
t

Mr. Sawyer's motion for, physically, equitable relief,

t

I
1%

5

4
r

1

asking the Court to find that the Department should be

2

estopped from collecting payments oh child support

3

arrearages based on his claim that the arrearages are

4

incorrect?

5

MR. PAGE:

the way you're characterizing the problems right off my

7

papers on our request.

9

I m not trying to argue that you should accept an
accounting that we haven't had done or his

10

representation of an accounting, just that we should be

11

able to do an accounting and credit him with the

12

payments he has made if he can show proof of payments

13

substantially in excess that have already been

14

credited -- then, obviously, a grave injustice has been

15

done to him.

16

that.

17
18

l )

Although if I may slightly modify

6

8

:

Yes.

I think the Court has the power to do

So I'm not

- I'm looking to — for you to, once

again as you did back in '06, suspend his payments

19

until we have an accounting of all that he's paid and

20

then address the issue at that point,

21

is unable to prove anything morb than Minnesota has

If, in fact, he

i
i

i

\

{

22

acknowledged — the other two counties in California

23

and Minnesota has acknowledged — we have nothing

24

further to do.

If, in fact, he has made payments much

S

I
I
l

ft

25

more than have been acknowledged —

1
I

8

I

S'

;

5
F

1
2

THE COURT:

And have been acknowledged by the

Minnesota court?

3

MR. PAGE:

4

THE COURT:

Correct, Minnesota.
Ms. Madeira-Correa has submitted a

5

responsive brief and copies of various opinions and

6

judgments from Minnesota wherein that state did make a

7

finding of arrears owed.

8

that you wish to contest; correct?

9

MR. PAGE:

10

THE COURT:

11

MR. PAGE:

12

THE COURT:

And it's those arrears owed

And they are growing.
And it's that adjudication?
Correct.
So I'm going to have to deny your

13

request for that relief because I do not believe that

14

California has subject matter jurisdiction over the

15

issue that has already been determined by another

16

forum.

17
18

Okay. I think she does a really good job of

!

summarizing the law and statutes —

19

MR. PAGE:

20

THE COURT:

21

MR. PAGE:

I read it.

s

— and I agree.
It is a fair summary,

On the other

22

hand, I think under Family Code Section 4913, 17, and

23

19 the Court has the authority to Credit for payments,

24

determine arrearages.

l
!

i

25

THE COURT:

I

If there had not been an adjudication
!

6

1

by another forum on that issue, I would one hundred

2

percent agree with you.

3

Right.

The trouble I had with all of

4

this — when Mr. Sawyer's first came in, he presented

5

as very earnest.

6

have to have some earnestness to embark on that.

7

spent some time trying to contact people in Minnesota,

8

but there wasn't any option — there wasn't any option

9

that we could find out, and we didn't get much

10
11

W’

MR. PAGE:

And looking at the uphill battle, you
So I

response.
THE COURT:

And that's why we have the full-faith

12

and credit clause.

13

MR. PAGE:

I understand.

The next thing I did was

14

look into the court file and found what you found in my

15

brief which is the Court had asked for an accounting or

16

reconciliation of payments made and credits, and never

17

got it.

18

his payments under the order until that could be done.

19

But at the next appearance, lifted the suspension, but

20

there were no inquiries or report about any

21

reconciliation.

22

THE COURT:

At the time that you did that, you suspended
I

f!
t

I think, too, because up until now

I?

23

there was not sufficient — well, I shouldn't say

I1
I

24

sufficient, I was accepting representation — but since

t

25

we were going so close to trial, I did require the

I

!

I

*5

7

1

Department to provide evidence of these court rulings,

2

which they have done.

3

MR. PAGE:

4

exhibits are there.

5

exhibits as they come in.

6

They are from Minnesota.

7

No, I understand that.

And the

And I have no objection to the
And they reflect finality.

But I do think that equitably the Court has the

8

powers to do what is right.

9

— finally for a response to that accounting that we'll

And I think if you ask for

10

know whether there is some injustice that needs to be

11

addressed and then we can look at the jurisdictional

12

powers.

13

pursue.

14
IS
16

It may well be that we have nothing more to

To be frank about this, I have not spent the time
vetting the credits because the hourly expense doing

i

that.

i
\

17

THE COURT:

18

MR. PAGE:

19

THE COURT:

20

I

Sure.
— unless, we get that issue, is stupid.
Sure:.

Yeah.

And I have to defer to

MR. PAGE:

22

THE COURT:

I
i

No, they haven't.

s
I

According to the judgment, I have to

defer to that judgment,

I'm required to.

I
24
25

i
!

Minnesota that they've already done that.

21

23

!

MR. PAGE:
date.

What Mr. Sawyer is clarifying is the

They have issued a final judgment.

They have

i

II
I

8

1

never done an accounting.

2

at Mr. Sawyer's feet; or if you find it, it certainly

3

can be laid at the feet of the attorneys representing

4

him at that time.

5

any recourse at this point.

6

insincere.

7
8
9

That can be waived, perhaps,

All of that is beyond the reach of
But his response is not

There was no accounting done.

THE COURT:

Yeah.

I don't know what — I'm sure

you pursued potential —
MR. PAGE:

Well, in Minnesota we did.

That

10

appears to be a dead end as far as my client,

11

indicating they determined it to be a final judgment

12

and there is no recourse there.

13

But since this Court is handling collection and

14

equitable powers are available, I think it's not

15

inappropriate for you to finally seek the accounting

16

that you ordered eight years ago.

17

THE COURT:

Yeah.

No, I'm going to deny the

18

request.

19

enforcing the judgment because of the failure to comply

20

with that order.

21

Basically, that they be estopped from

i

So next step?

2

22

MS. MADEIRA-CORREA:

23

MR. PAGE:

24
25

Well
i

Mr. Sawyer will be purging shortly, so

we can set a date so that that happens.

l

l

t

i

MS. MADEIRA-CORREA:

Okay.

The current order is

5
k

I

I

8

1G

1

MR. PAGE:

2

MS. MADEIRA-CORREA:

3

MR. PAGE:

4

THE COURT:

5

MS. MADEIRA-CORREA:

6

And staying current
Okay.

And time is waived?

Yes.
Wednesday, April 30th at 1:30?
This is for theoretically

setting?

7

MR. PAGE:

8

Again, my appearance is not necessary if he has

9

Yes, that will be fine.

paid.

10

THE COURT:

11

Thank you*

12

(Proceedings concluded.)

13

And if he has purged, yes.

—oOo--

14
15
16
17
18
19
20
21

f

i
t

!

22
23

II

24
25

l
1
I

11

1

STATE OF CALIFORNIA

2

)

ss,
COUNTY OF SANTA CRUZ

3
4
5
6

I, PATRICIA A. BOYD, certified reporter of the
State of California, hereby certify:
That I was present at the times and places herein

7

set forth and that I reported in shorthand notes the

8

proceedings had; that I thereafter transcribed my said

9

shorthand notes into typing I the foregoing being a full,

10

true and correct transcript thereof, and a full true and

11

correct transcription of the proceedings had.

12

In said capacity, I have adhered to Civil Code of

13

Procedure Section 237(a) (2), Sixth District Court of Appeal

14

redaction, of all references to juror-identifying

15

information, including but not limited to names, addresses,

16

and telephone numbers.

17

i

DATED this March 15th, 2019

!

18
19
20

!
j

21
22

111
J

•o

!. •

j

PATRICIA A. BOYD, CSR Number 9189

if
If
l
i
¥

I

23

i
24

i

25

I

i

II

t

251

1
2

COURT OF APPEAL OF THE STATE OF CALIFORNIA

3

FOR THE SIXTH APPELLATE DISTRICT

4
5

SANTA CRUZ COUNTY DEPARTMENT
OF CHILD SUPPORT SERVICES

6

Plaintiff, Respondent,
vs.

Appeal No. H046558

7
8

JAMES ABBOTT SAWYER,
Defendant,Appellant
/

9
10

APPEAL FROM THE SUPERIOR COURT OF

11

SANTA CRUZ COUNTY

12

HONORABLE JANA KAST-DAVIDS, COMMMISSIONER

13

REPORTER'S TRANSCRIPT ON APPEAL

14

OCTOBER 23, 2018

15
16

APPEARANCES:

17
For the Plaintiff:

JENNEVEE HAN deGUZMAN
DOJ Attorney General's Office
1300 I. Street, Suite 125
Sacramento, CA 94244-2550

For the Defendant :

COREY PARKER,
Attorney at Law
1230 Rosecrans Ave, Suite 300
Manhattan Beach, CA 90266

Official Court Reporter:

OSCAR A. MORENO,
CSR 3441

18
19
20
21
22
23
Volume 2
24
25
26

Pages 251 - 500/304
* * *

262

1

A.

It ended up being that number, yes.

2

Q.

And the judge ordered you to pay that at $100 per

3

month?

4

A.

Yes.

5

Q.

After these proceedings in the Santa Clara County

6

Superior Court you began complying with the child support

7

orders?

8

A.

9
10

No, I began complying with the orders essentially

immediately after the divorce or I continued to comply.
Q.

Certainly after the Santa Clara Superior Court Judge

11

made these orders money started to be deducted from your

12

paycheck; is that accurate?

13
14
15

A.

Correct.

And that's how we got to the 12,000

actually.
Q.

According to the Minnesota Department of Child

16

Support between January of 1991 and the end of 2000, a

17

ten-year period, you paid $68,180.11.

18

that's the number that Minnesota has given you credit for?

Are you aware that

19

A.

Yeah, I guess.

20

Q.

During that ten-year period?

21

A.

Um-hmm.

22

Q.

Have you read the point and authorities that we

RiiVimi •M" caH

-in

-t-VHe:

raqo?

*

5U1

1

COURT OF APPEAL OF THE STATE OF CALIFORNIA

2

FOR THE SIXTH APPELLATE DISTRICT

3
4

SANTA CRUZ COUNTY DEPARTMENT
OF CHILD SUPPORT SERVICES,

5

Plaintiff/Appellant,
6
vs.

)
)
)
)
)

)
)
)

7
JAMES ABBOTT SAWYER,
8

FAMILY
NO. H046558

(Santa Cruz County
Superior Court
Case No. FL007773)

)

Defendant/Appellant.
9

)

10
11

REPORTER'S TRANSCRIPT ON APPEAL

12
November 13, 2018
13
14

APPEARANCES:

15
For Plaintiff/Appellant;
16
17
18
19

OFFICE OF THE ATTORNEY GENERAL
■ Department of Justice
State of California
BY: JENNEVEE HAN deGUZMAN
1300 I Street, Suite 125
Sacramento, CA 94244-2550

20
21
22
23

For Defendant/Appellant:
JAMES ABBOTT SAWYER
In Propria Persona
5485 Ball Drive
Soquel, CA 95073

24
25

Official Court Reporter:

26

Volume 3
Pages 501 through 509/end

COURT

TANIS J. O'CONNOR, CSR 7553

5U2

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF SANTA CRUZ
BEFORE JANA KAST-DAVIDS, COMMISSIONER

2
3

IN RE THE MATTER OF:

)
)

4
ROSEMARY CATHERINE HILD,

No. FL007773

5

)
)
)
)
)
)

Petitioner,
6
vs.
7
8
9

JAMES ABBOTT SAWYER,
Respondent.

)

10
11
12

REPORTER'S TRANSCRIPT OF PROCEEDINGS

13
November 13, 2018
14
15

APPEARANCES

16
For Department of Child Support Services:
17
18

LINDA KISSINGER
Child Support Attorney

19
20
For Respondent:
21
22

KEN AZEVEDO
Deputy Public Defender

23
24
25
26

Official Court Reporter:

TANIS J. O'CONNOR
CSR No. 7553

1

Watsonville, California

2

November 13, 2018

PROCEEDINGS

3

—oOo—

4

THE COURT:

On the record for line 11, the

5

matter of Catherine — Rosemary Catherine Hilda versus

6

James Abbot Sawyer.

Case Number FL007773.

7

Appearances, please.

8

MS. KISSINGER:

9

Linda Kissinger for the

Department of Child Support Services.

10

MR. AZEVEDO:

11

not here.

12

11:00 o'clock.

Ken Azevedo for Mr. Sawyer, who is

I'm not quite sure why.

He knows to be here at

13

THE COURT:

14

So this matter was set on today - let's regroup

Okay.

15

with the contempt - probation revocation hearing?

16

where we're at with this, or is it sentencing?

17
18

MS. KISSINGER:

THE COURT:

20

MS. KISSINGER:

21

THE COURT:

22

MR. AZEVEDO:

24

We haven't done

anything on the contempt.

19

23

On Sawyer?

Is that

Anything?

Nothing on the contempt?

Nothing on the contempt.

Okay.
It was on for setting of a trial

date, I believe.
THE COURT:

Okay.

I was looking through

25

everything, and we've gone back and forth so many times, I

26

wanted to clarify.

0U4

1

So nothing has happened with regards to the

2

setting, and we were trailing the setting issue behind the

3

registration issue.

4

Okay.

So I was hoping that today I would be in

5

a position - and you would be in a position - to give the

6

Court some requests about the contempt, because we

7

anticipated that I would have a final decision on the

8

registration issue, and I don't, because — I just want to

9

recapture emails on the record, because those are not part

10

of the record.

11

glad we have a court reporter today.

12

That's why I wanted this reported, and I'm

So just to summarize, we had the hearing on

13

October 23rd on Mr. Sawyer's registration — motion to

14

vacate the registration, and I don't want to reopen all

15

those arguments, but I sent an email out to both of you on

16

October 30th, and in that email I said, "Can you please

17

file and serve an easy-to-read account summary which

18

explains how much Mr. Sawyer has paid each calendar year

19

from April 2000" — and I later attempted to correct that,

20

said, "

21

November 5th, and please email me a courtesy copy, since

22

I'm not always aware of digital filings."

23

. . from April 2001 to the present, by Monday

On November 2nd, Mr. Azevedo did send me his

24

accounting — or his summary, what payments he believes

25

have been made since April 2001 to .the present.

26

And then, after the cutoff, on November 6th, the

■t

ti

5U5

1

Department of Child Support Services sent their summary

2

but also lengthy supplemental briefing, which I did not

3

invite and was not expecting.

4
5
6

In all fairness, I asked Mr. Azevedo, "Did you
want to respond to it?"
And then I'm not here Thursday and Friday, so

7

that's why I was not able to get back to your request,

8

whether you should respond or not.

9

I did see that you filed briefing in response to

10

the department's brief, and you filed that on

11

November 9th; correct?

12

MR. AZEVEDO:

13

THE COURT:

14
15
16
17
18

November 9th.

Last Friday, yes.
Yes.

So you filed that on

Monday was a holiday, yesterday.

So I'm going to read it all.

I heard

go

ahead,*Mr. Azevedo.
MR. AZEVEDO:

I just wanted to mention that I

filed that out of abundance of caution in case --

19

THE COURT: .Yes.

20

MR. AZEVEDO:

— you overruled my objection to

21

the department filing supplemental briefing after the

22

October 23rd hearing.

23
24

I did object to that in the email, and I
maintain that objection, for what it's worth.

25

THE COURT:

26

And, yeah, next time just stick to what I

Okay.

Thank you.

5Ub

1

request, because the matter was submitted, and it makes it

2

difficult for the Court to act in a timely manner, and it

3

doesn't give opposing counsel a time to respond to issues

4

that you might raise in a supplemental briefing.

5

MS. KISSINGER:

Well, it was our position that

6

you requested additional evidence, so it was opened back

7

up, and we can provide you with that evidence, but we had

8

a right to explain to the Court why we were objecting to

9

consideration of that evidence.

10
11

THE COURT:
really clear:

12

That was our position.

Okay, but I'm just — the email was

Just give me an accounting; that's it.

And you made it very clear at the hearing and in

13

your moving -- in your points and authorities previously

14

filed that the department does not agree that the Court

15

has authority to grant any relief,

16

position.

17

was not to elaborate on that more.

18

whole process a little bit longer than anticipated.

I'm aware of your

I'm aware of your authority, but the invitation

19

MS. KISSINGER:

20

THE COURT:

It just extended this
Okay?

Understood.

And out of — just in the future,

21

perhaps, ask the Court — if I do ask for more briefing,

22

or something, I — I'm usually pretty clear about what I

23

want.

24

that's okay, so that way the other side can have an

25

opportunity to respond and participate too.

26

If you want to provide more, then'ask the Court if

MS. KISSINGER:

Okay.

V

ou«

1

THE COURT:

That’s the contempt matter, and the

2

registration issue — well, actually, the registration

3

issue will not be continued, because I’m going to issue a

4

written order on that.

5

for December 18th at 9:30.

6
7

So the contempt issue will be set

MS. KISSINGER:
personally present?

8

THE COURT:

9

MS. KISSINGER:

10
11
12

And Mr. Sawyer is ordered

Yes.
Thank you.

THE CLERK:

And that’s hearing on contempt or

THE COURT:

Setting on contempt.

setting?
Again, that’s

13

set for setting on contempt on December 18th at 9:30 a.m.

14

He’s ordered personally present unless excused.

15

The hearing on the registration issue will not

16

be continued, since I am taking it under submission and

17

will issue a written decision.

18

MR. AZEVEDO:

19

And for the record, Mr. Sawyer just walked in.

20

THE COURT:

Okay.

21

THE CLERK:

Do you need a court reporter for a

22

Thank you.

Thank you.

setting date?

23

MR. AZEVEDO:

24

for just setting on the contempt.

Again, we waive the court reporter

25

(Proceedings adj ourned.)

26

—oOo—

1
509
2
3
4

STATE OF CALIFORNIA

)

5
6

ss.
COUNTY OF SANTA CRUZ

)

7
8
9
10
11

I, TANIS J. O'CONNOR, a Certified Shorthand
Reporter, License No. 7553, do hereby certify:
That the foregoing proceedings were reported by

12

me in machine shorthand at the time and place therein

13

named and were thereafter transcribed by means of

14

computer-aided transcription, and that the same is a true,

15

correct and complete transcript of said proceedings, to

16

the best of my ability.

17
18

Dated this 27th day of March, 2019.

19
20
21
22
23
24
25
26

TANIS J. O'CONNOR
Official Reporter, CSR 7553

X

COURT OF APPEAL FOR THE STATE OF CALIFORNIA
SIXTH APPELLATE DISTRICT

ROSEMARY CATHERINE HILDA

SANTA CRUZ COUNTY SUPERIOR COURT

V

Case No: FL007773

JAMES ABBOTT SAWYER

H046558
VOL I OF I, PAGES 1-169

CLERK’S TRANSCRIPT FOR APPEAL OF THE JUDGMENT ENTERED
DECEMBER 18,2018

JANAKAST-DAVIDS,
COMMISSIONER OF THE SUPERIOR COURT

COREY EVAN PARKER
1230 ROSECRANS AVE, STE 300
MANHATTAN BEACH, CA 90266
ATTORNEY FOR RESPONDENT &
CROSS-APPELLANT

JENNEVEE HAN DEGUZMAN
DOJ ATTORNEY GENERAL'S OFC
13001 STREET, SUITE 125
SACRAMENTO, CA 94244-2550
ATTORNEY FOR PETITIONER &
APPELLANT

CHRONOLOGICAL INDEX
SUPERIOR COURT NO.: FL007773

APPELLATE COURT NO.: H046558

DATE

DOCUMENT

03/21/05

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

6

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

10

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR
CONTEMPT..............................................................

28

02/25/09
06/26/13

PAGE

12/18/13

RESPONDENT’S HEARING BRIEF

31

12/31/13

DCSS RESPONSIVE BRIEF.

34

02/13/14

DCSS SUMMARY OF AUTHORITIES AND EXHIBITS.....

53

03/05/14

MINUTE ORDER

80

04/03/14
01/05/18
06/25/18
06/28/18
10/18/18

SHORT FORM ORDER AFTER HEARING

81

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR
CONTEMPT..............................................................

83

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

89

REQUEST FOR HEARING REGARDING REGISTRATION
OF SUPPORT ORDER............................................................

99

RESPONDENT’S POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER........................................................

101

DCSS REPLY BRIEF TO RESPONDENT’S
MEMORANDUM OF POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER............................................................

113

10/23/18

EXHIBIT LIST

121

11/2/18

RESPONDENT’S POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL).....................

122

10/22/18

f

CHRONOLOGICAL INDEX
SUPERIOR COURT NO.: FL007773
DATE
11/06/18

APPELLATE COURT NO.: H046558

DOCUMENT

PAGE

DCSS MEMORANDUM OF POINTS AND AUTHORITIES
RE VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL)..............................

125

DCSS MEMORANDUM OF POINTS AND AUTHORITIES
RE VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL)..............................

140

11/13/18

MINUTE ORDER

146

11/19/18

SHORT FORM ORDER AFTER HEARING

147

11/09/18

12/18/18

MINUTE ORDER

151

12/18/18

AMENDED SHORT FORM ORDER AFTER HEARING

152

01/10/19

NOTICE OF APPEAL

155

01/17/19

APPELLANT’S NOTICE DESIGNATING RECORD ON
APPEAL.....:.....................................................................

156

01/18/19

NOTICE OF CROSS-APPEAL

161

03/07/19

APPELLANT’S NOTICE DESIGNATING RECORD ON
APPEAL............................................................................

162

ALPHABETICAL INDEX
SUPERIOR COURT NO.: FL007773

APPELLATE COURT NO.: H046558

DATE

DOCUMENT

12/18/18

AMENDED SHORT FORM ORDER AFTER HEARING

152

01/17/19

APPELLANT’S NOTICE DESIGNATING RECORD ON
APPEAL............................................................................

156

APPELLANT’S NOTICE DESIGNATING RECORD ON
APPEAL............................................................................

162

DCSS MEMORANDUM OF POINTS AND AUTHORITIES
RE VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL)..............................

125

DCSS MEMORANDUM OF POINTS AND AUTHORITIES
RE VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL)..............................

140

03/07/19
11/06/18

11/09/18

10/22/18

DCSS REPLY BRIEF TO RESPONDENT’S
MEMORANDUM OF POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER...........................................................

PAGE

113

12/31/13

DCSS RESPONSIVE BRIEF

34

02/13/14

DCSS SUMMARY OF AUTHORITIES AND EXHIBITS

53

10/23/18

EXHIBIT LIST

03/05/14

MINUTE ORDER

80

11/13/18

MINUTE ORDER

146

12/18/18

MINUTE ORDER

151

01/10/19

NOTICE OF APPEAL

155

01/18/19

NOTICE OF CROSS-APPEAL

161

03/21/05

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

6

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

10

NOTICE OF REGISTRATION OF OUT-OF-STATE
SUPPORT ORDER....................................................

89

02/25/09
06/25/18

121

%

ALPHABETICAL INDEX
SUPERIOR COURT NO.: FL007773

APPELLATE COURT NO.: H046558

DATE

DOCUMENT

06/26/13

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR
CONTEMPT..............................................................

28

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR
CONTEMPT..............................................................

83

01/05/18
06/28/18

PAGE

REQUEST FOR HEARING REGARDING REGISTRATION
OF SUPPORT ORDER...........................................................

99

12/18/13

RESPONDENT’S HEARING BRIEF

31

10/18/18

RESPONDENT’S POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER.......................................................

101

RESPONDENT’S POINTS AND AUTHORITIES RE
VALIDITY AND ENFORCEMENT OF MINNESOTA
SUPPORT ORDER (SUPPLEMENTAL).....................

122

11/2/18

04/03/14

SHORT FORM ORDER AFTER HEARING

81

11/19/18

SHORT FORM ORDER AFTER HEARING

147

!■

■+

<■

)

I
FOR COURT USe ONLY

SUPERIOR COURT OF CALIFORNIA. COUNTY OF SANTA CRUZ
STREET ADDRESS: 701 OCEAN STREET
MAILING ADDRESS: 701 OCEAN STREET
CITY AND ZIP CODE : SANTA CRUZ, CA 95060
BRANCH NAME: SANTA CRUZ COUNTY SUPERIOR COURT

F

PETITIONER/PLAINTIFF:
ROSEMARY HILDEBRANDT

MA8 2 ! ~m
J. FOX.&ERK

RESPONDENT/DEFENDANT:
JAMES A. SAWYER

DE

CS Support Order

PA cru;

INTY

CASE NUMBER:

NOTICE OF REGISTRATION OF OUT-OF-STATE

1. To (name):

I L E

CZI Income Withholding Order

FL7773

JAMES A. SAWYER

2. You are notified that an DD Out-of-State Support Order Cl Out-of-State Order for Income Withholding has be
an registered with
this court. A copy of the order and the Registration Statement are attached.
3. The amount of arrears is specified in Item 1 on the attached Registration Statement.

4. The registered order is enforceable in the same manner as a support order made by a California court as of the date the Registration
Statement is filed.

5. If you want to contest the validity or enforcement of the registered order, you must request a hearing within 25 days of the date that
the notice was mailed to you (see below for clerk’s date of mailing!. You can request a hearing by completing and filing a Reouest
for Hearing Regarding Registration of Support Order (form FL-575).
6. If you fail to contest the validity or enforcement of the attached order within 25 days of the date this notice was mailed, the order will
be confurned by the court and you will not be able to contest any portion of the order including the amount of arrears as specified in
Item 1 of the Registration Statement.

CLERK'S CERTIFICATE OF MAILING

1. I certify that I am not a party to this cause and that a copy of the registration statement with a copy of the out-of-state order were
sent to the person named in item 1 by first-class mail. The copies were enclosed in an envelope with postage fully prepaid. The
envelope was addressed to the person named in item 1 only at the address in the registration statement, sealed, and deposited with
the United States Postal Service
at (place)-.
on (date):

y -i? l 8 2005

2. Copy sent to local child support agency on (date):

Date:

MAR 1 8 2005

Form Adopted for Optional Use
Judicial Council of California
FL-570 (Rev. January 1, 20031

6547/FEB 03 44MMV ENF03.

MAR 1 8 2005

Clerk, by

J).

OiAaIA/^-

NOTICE OF REGISTRATION OF OUT-OF-STATE SUPPORT ORDER

, Deputy

Page 1 of i
Family Code, §54952, 4954
www.courtinfo.ca.gov

CASE#: 0001860

6

>

Registration statemen^
Responding IV-D Case No.

001071193701

Responding Docket No.
I.

Case Summary

Initiating IV-D Case No.

087 0001860

01

Initiating Docket No.

DM-F4-87-23798

(Background of this Matter: Court / Adminstrative Actions)

Date of Support Order
02-13-2001

State and County Issuing Order
RAMSEY

Support Amount/Frequency

Date of Last Payment
03/07/2005

$

Tribunal Case No.
DM-F4-87-23798

MN
Amount of Arrears

Period of Computation

$ 89.182.15
Date

II. Mother Information

[

] Obligor

Full Name and Aliases
(First, Middle, Last)

UNKNOWN
thru
Date

[X] Obligee

Address (Street, City, State, Zip)

Employer (Name, Street, City, State, Zip)

ROSEMARY HILDEBRANDT

SSN:

475-64-7124

III. Father information

[X] Obligor

[

] Obligee

Full Name and Aliases
(First Middle, Last)

Address (Street, City, State, Zip)

JAMES A. SAWYER

211 WIXON AVE
APTOS, CA 96003

SSN:

Employer (Name, Street City, State, Zip)
POCKETSCIENCE INC.
2540 MISSION COLLEGE BLVD
SANTA CLARA, CA 95054

475-70-1442

IV. Caretaker (If Not a Parent) Relationship to Chiid(ren)
Full Name and Aliases
(First, Middle, Last),

MOTHER

Address (Street City, State, Zip)

ROSEMARY HILDEBRANDT

SSN:

475-64-7124________________

V. Additional Case Information
This order Is registered in the following states:
CALIFORNIA

Description and location of any property not exempt from execution:

Other

VI. Verification / Certification
Under penalties of perjury, all information and facts concerning the arrearage accrued under this order are true to the best of my knowledge and belief.
03-11-205
Date

SANTA CRUZ
CALIFORNIA
Sworn to and Signed Before Me This
Date, County/State

Registration Statement
6603/JUL 03 44MMV ENF03.

[ ] Party seeking Registration

D(] Records Custodian
MARGARET M. VASOUEZ

NOTARY PUBLIC
Notary Public, Court/Agency Official and Title

FL-556/OMB No. 0970 - 0085

Commission Expires

Page 1 of 1

7

V

n

r

STATE OF MINNESOTA1"

DISTRICT COURT

F.--J 2 - ; ,.:1
COUNTY OF RAMSEY

SECOND JUDICIAL DISTRICT

E-

Marriage Dissolution With Children

In Re the Marriage of:

Assigned Judicial Officer Earl F. Beddow, Jr.

Rosemary Catherine Sawyer,
ORDER
Petitioner,
and
File No. DM-F4-87-23798

James Abbott Sawyer,
Respondent.

This matter came on before the undersigned Referee of District Court, Family
Court Division, on the 29th day of January, 2001 upon the motions of the parties.
Petitioner appeared personally and was represented by her attorney, Robb L. Olson,
Meslow & Olson, PLLC, 2125 Second Street, White Bear Lake, MN 55110. James
Sawyer was not present, but was represented by his attorney, Robert J. Hajek,
Warchol, Berndt & Hajek, P.A., 3433 Broadway Street Northeast, Suite 110,
Minneapolis, MN 55413.
The Court, having reviewed the file, records, affidavits and arguments of
counsel, now makes the following:
ORDER
1.

That, the Judgment and Decree of Dissolution of January 20, 1989 be

and hereby is amended to provide that the parties shall have joint legal custody of
Jamison Alexander Sawyer, with Respondent being awarded primary physical
custody, subject to reasonable visitation by Petitioner.

8

2.

Commencing February 1, 2000, on the first day of each month

thereafter, Petitioner shall pay to Respondent $200 in child support. Such support
shall continue until the minor child is 18 years of age, or will continue thereafter until
the child graduates from high school or attains the age of 20, whichever shall first
occur.
3.

That Respondent’s motion for child support shall be retroactive to

September 1, 2000. That the retroactive amount shall be based upon $80 per month,
and the total arrearage from September 1, 2000 through January 31, 2001 is $400.
That said arrearages shall be deducted from" any arrearages in child support owing by
Respondent to Petitioner.
4.

That Petitioner has alleged child support arrears owing by Respondent

to Petitioner in the amount of $89,582.15. That judgment shall be entered on said
arrears unless, within sixty (60) days from the date of this Order, the parties agree
that a different amount is owing, or Respondent proceeds before this Court by Notice
of Motion and Motion within that sixty (60) day period.
The foregoing facts were found by
me after due hearing, and the foregoing*0Ttfer thereon is recommended.

Referee Beddow
Referee of Family Court

2. 13-qI

kathlesn/qearin
/
'
Copies sent by U. S. Mail to

-2-

9

*

Poui4SUPERIOR COURT OF CALIFORNIA, COUNTY OF SANTA CRUZ

t

FL-5T0
FOR COURT US£ ONLY

STREET ADDRESS: 1 SECOND ST RM 300

I L E

MAILING AODRESS: 1 SECOND ST RM 300
CITY AND ZIP CODE' WATSONVILLE 05070*6139
BRANCH NAME WATSONVILLE BRANCH COURTHOUSE

FEB 25 2009

PETITIONER/PLAINTIFF: ROSEMARY CATHERINE SAWYER

ALVO, CLERg/

---------- —

RESPONDENT/OEFENDANT: JAMES ABBOTT SAWYER

NOTICE OF REGISTRATION OF OUT-OF-STATE SUPPORT ORDER

f. SANTA CRUZ COUNTY
CASE NUMBER

v;

J

10

. v.

♦

REGISTRATION STATEMENT
Responding IV-D Case Number 0870001860-01
Responding Tribunal Number

FL7773

Initiating IV-D Case Number
Initiating Tribunal Number _

Q0iQ7ilQ^lOl

Action:

Register for Enforcement
[ ] Register for Modification

I. Case Summary (Background of this Matter Court / Administrative Actions)
Date of SuDDort Order
State end Countv Issuino Order

Wb\01

Tribunal Case Number.

YC(Y)S£sl ,

SupportAnggi

Date of Last Payment
03/17/2008

Social Security Number
III. Father Information
Full Name

omlm\

$

[ ] Tribunal Has Determined This to Be Controlling Order
[ ] Only Older
II. Mother Information
( ] Obligor
"MObligee
Full Name
Address Street, City, State, Zip)

<

'bM-FM
,
. Perkx

Amount of Arrears

i4i ldebrardh
M-iF-W-ii nA

thru

Date

Employer (Name, Street, City, State, Zip)

1

[ 1 Obligor
[ ] Obligee
Address (Street, City, State, Zip)

Employer (Name, Street, City, State, Zip)

XeA.ea^er
M-76-70-!44x

Social Security Number
IV. Caretaker (If Not a Parent)
Full Name
(first, middle, last)
Aliases

Ml*

Relationship to Child(ren) ________
Address (Street City, State, Zip)

[ ] Has legal custody/guardianship of child(ren)

Social Security Number
V. Additional Case Information
( ) Nondisclosure Finding Attached
This order is registered in the following states:

CALI FOf^M IA

Description and location of any property not exempt from execution:

Other:

VI. Verification / Certification
Under penalties of perjury, all information and facts concerning the arrearage accrued under this order are true to the best of my
knowledge and belief.
02/12/2009’
DANA ST.PIERRE
Date
Sworn to and Signed Before Me This
Date, County/State
Registration Statement

[ ] Party Seeking Registration
Notary Public, Court/Agency Official and Title

Records Custr

Commission Expires

OMB No. 0970 - 0085 Expiration Date: 01/31/2011

Page 1 of 1

INSTRUCTIONS FOR REGISTRATION STATEMENT
PURPOSE OF THE FORM:
The Registration Statement is completed by the initiating jurisdiction to request registration of an existing order for
enforcement and/or modification. The purpose of the form is to refer specific order information to the responding State.
This form can be used in IV-D and non-IV-D interstate cases. It should be included with the other appropriate forms
and directed to the responding State's central registry. In non-IV-D cases, contact the responding State central registry to
determine appropriate procedures. It is important to remember that a separate Registration Statement is needed for each
order that the initiating State is requesting be registered by the responding State.
Italicized text that appears within a "box" refers to policy or provides additional information.
HEADING/CAPTION:
• In the appropriate spaces, if applicable and if known, enter the Responding jurisdiction's IV-D case number, and
Tribunal number.
Under "IV-D case number", enter the number/identifier identical to the one submitted on the federal case
Registry, which is a left-justified 15-character alphanumeric field, allowing all characters except asterisk and
backslash, and with all characters in uppercase. Under "tribunal number", you may enter the docket number,
cause number, or any other appropriate reference number that the responding State may use to identify the
case, if known. The Responding jurisdiction is the jurisdiction that is working the case at the request of the
initiating jurisdiction.
• In the appropriate spaces, enter the Initiating jurisdiction's IV-D case number, and tribunal number.
Under "IV-D case number", enter the number/identifier identical to the one submitted on the federal case
Registry, which is a left-justified 15-character alphanumeric field, allowing all characters except asterisk and
backslash, and with all characters in uppercase. Under "tribunal number", you may enter the docket number,
cause number, or any other appropriate reference number which the initiating tribunal or agency has assigned
to the case. The initiating jurisdiction is the jurisdiction that referred the case to the responding jurisdiction for
services.
ACTION:
Check the appropriate box indicating whether you are registering this order for enforcement or modification. NOTE
that registration for enforcement should be accompanied by Transmittal #1. Registration for modification should be
accompanied by Transmittal #1, Uniform Support Petition, and General Testimony.
SECTION I, CASE SUMMARY
Provide complete information for all court/administrative actions regarding support for dependents. Use a separate
Registration Statement form for each court/administrative order you are requesting be registered. For the listed order,
under "Period of Computation", enter the month, day, and year for both the beginning of the current support obligation
and the end date of the computation. The information in this section will be used to aid in verifying calculated arrearages
and to assist in determining/verifying which order is controlling and which State has continuing exclusive jurisdiction.
The arrears statement/payment history must support this calculation. If this order was determined by a tribunal to be the
controlling order, check the appropriate box. If this is the only order, check "Only order".
Attach the required number of copies of all pertinent orders that relate to support. You will generally need to attach two
copies, one of which is certified, of any support order. NOTE, however, that some responding States may be able to take
certain administrative enforcement actions (e.g., interstate income withholding) without having a certified copy of the
order, although a regular copy is necessary.
SECTION II, MOTHER INFORMATION:
This section provides basic information about the children)'s mother. Check the appropriate box to indicate if the mother
is the obligor or obligee. Provide the mother's full name (first, middle, last) as well as aliases and maiden name, and all
other information. Provide the name and full address of the mother's employer. If the mother's name does not match with
the court or administrative order, explain in Section V.
Instructions for Registration Statement

Page 1 of 2

SECTION III..FATHER INFORMATION:
This section provides basic information about the children)'s father. Check the appropriate box to indicate if the father
is the obligor or obligee. Provide the father's full name (first, middle, last) as well as aliases, and all other information.
Provide the name and full address of the father's employer. If the father's name does not match with the court or
administrative order, explain in Section V.
SECTION IV. CARETAKER (IF NOT A PARENT):
Complete this section only if the children)'s caretaker is not the child(ren)'s parent. In the space labelled "Relationship
to Children)”, indicate the relationship of the caretaker to the child(ren). Provide the caretaker's full name (first, middle;
last) as well as aliases or maiden name, and all other information. Indicate whether the caretaker has legal
custody/guardianship of children), if known.
SECTION V. ADDITIONAL CASE INFORMATION:
In this section, provide additional information which may be useful to the responding jurisdiction in working the case,
such as a complete listing of all States where the child support order has previously been registered and a description,
including the location, of all known property or assets not exempt from execution. In addition to the requested information,
use this portion of the form to provide other information which may assist the responding jurisdiction in its efforts to
register the order.
SECTION VI. VERIFICATION / CERTIFICATION:
• The Registration Statement may be signed by either the party seeking registration or an authorized IV-D
representative/records custodian. Check the appropriate box to indicate who has signed this form.
• The verification signature requires a notary.

The Paperwork Reduction Act of 1995
This information collection is conducted in accordance with 42 U.S.C. 651 et seq. and 45 CFR 303.7 of the child
support enforcement program. Standard forms are designed to provide uniformity and standardization for interstate
case processing. Public reporting burden for this collection of information is estimated to average under half an
hour per response. The responses to this collection are mandatory in accordance with the above statute and
regulation. This information is subject to State and Federal confidentiality requirements; however, the information
will be filed with the tribunal and/or agency in the responding State and may, depending on State lawl be disclosed
to other parties. An agency may not conduct or sponsor, and a person is not required to respond to, a collection of
information unless it displays a currently valid OMB control number.

Instructions for Registration Statement

Page 2 of 2

O8^0COlftfci?-6i
STATE OF MINNESOTA
COUNTY OF RAMSEY

DISTRICT COURT
SECOND JUDICIAL DISTRICT
CASE TYPE 04 - DISSOLUTION

In Re the Marriage of:
Rosemary Catherine Sawyer.
Petitioner,
and
James Abbott Sawyer,

filed
JAN 0 5 2009

FINDINGS OF FACT.
CONCLUSIONS OF LAW. AND
ORDER FOR DISMISSAL

»
Court File No. F4-87-23798
Respondent.
PY
deputy IV-D Case No. 0010711937-01
Definitions: The County means Ramsey County. The State means the State of
Minnesota. The Obligee/Petitioner means Rosemary Catherine Hildebrandt, Wa
Rosemary Catherine Sawyer and the Obligor/Respondent means James Abbott
Sawyer.
The above-entitled matter came on for hearing before Colia F. Ceisel, presiding
Child Support Magistrate, at Ramsey County on November 25, 2008 pursuant to the
Respondent’s motion relating to arrears. The record closed on December 22,2008.
The Petitioner was present without counsel. The Petitioner’s mailing address is
3433 77th Avenue North, Brooklyn Park, MN 55443.

The Respondent was not present. The Respondent was represented by
counsel, Donald Beauclaire, Esq., 3433 Broadway Street N.E., Suite 110, Minneapolis,
MN 55413-1759.
Anne Joiliffe, Assistant County Attorney, appeared on behalf of Ramsey County.
Anne Jones, Child Support Officer, was also present.
The Child Support Magistrate, upon reviewing the files, affidavits and
proceedings herein, and upon hearing the testimony of the parties presented, and being
fully advised, does hereby make the following:
STATEMENT OF THE ISSUE
The issue in this case is whether the Respondent’s motion to determine arrears:
• states a claim upon which relief can be granted; and,
• if it does, whether the dismissal of the motion should be with or without
prejudice.
FINDINGS OF FACT
1. The Petitioner currently receives non-public assistance child support services.
2. The Respondent's birth date is September 10,1956. The Petitioner’s birth
date is June 11,1951.

3. The Respondent is not a member of the armed services.
4. The social security numbers of the Respondent, Petitioner, and the joint child
are incorporated as stated on Confidential Form 11.1 on file with the Court
5. This matter originally came on for hearing on November 4,2008 based upon
the Respondent's motion served by mail on the Petitioner and the County on October
15,2008.
6. At the November 4,2008 hearing the Respondent renewed his request for a
continuance which had been denied the previous week. When that was denied, the
Respondent moved to dismiss his motion.
7. In response the County requested that the dismissal be with prejudice and
that the court impose sanctions on the Respondent under Minn.R.Civ.P. 11.03 or other
applicable law.
8. The present hearing was scheduled to resolve those issues as well as
whether there should be other conditions imposed on the dismissal and whether the
Respondent should be required to pay attorney's fees to the County.
9. The County has withdrawn its request for sanctions and attorney’s fees
leaving only the question of whether the dismissal should be with prejudice or whether
there should be conditions imposed on a subsequent filing of the motion.
10. The record was left open to allow both parties to submit memoranda of law
regarding whether the Respondent’s motion states a claim upon which relief can be
granted .
11. Based upon the order dated February 13, 2001, there was a judgment
entered in this matter determining arrears as of January 31,2001.
12. While the Respondent characterizes his motion as a request to determine
arrears, the motion ignores or mistakes the effect of the judgment entered pursuant to
the February 13,2001 order.
13. A judgment is a final determination of an issue. In this case, it is a final
determination of the amounts owed by the Respondent for child support through
January 31, 2001. The judgment was necessarily a determination of both amounts
owed and amounts paid as of that date.
14. The Respondent’s motion, inter alia, seeks to redo the calculation of the
amounts he owed and the amounts he paid through January 31,2001.
15. Since those issues were necessarily decided by the judgment authorized by
the order dated February 13, 2001, any request mat the Court determine the amount
owed and the amount paid through January 31, 2001 is necessarily an attack on the
judgment and is foreclosed by the judgment.

* yfile k®®1
County's and the Respondent's memoranda refer to summary judgment, the Court is
to granted ^ bfoader question * wheth0r the Respondent’s motion states a claim upon which relief can

2

16. The Respondent's motion is most properly characterized as a motion to
vacate a judgment.
17. The Expedited Child Support Process creates a court of limited jurisdiction.
18. The judgment at issue in this case was granted by the District Court
19. While there may be jurisdiction in the Expedited Child Support Process to
hear a motion to vacate a judgment granted in the Expedited Child Support Process,
there is absolutely no jurisdiction to hear a motion to vacate a judgment entered in the
District Court.
20. This Court is not at liberty to treat the Respondent's motion as a motion to
vacate a judgment in order to proceed to a hearing on the merits.
21. The Respondent’s motion to determine arrears through January 31, 2001
fails to state a claim upon which relief can be granted.
22. The Respondent’s motion also raises some questions regarding amounts
owed and amounts paid since January 31,2001. The presentation of those issues is so
intertwined with the Respondent's allegations relating to matters through January 31,
2001, it is impractical for the Court to separately determine those issues based upon
the motion before the Court.
23. Because the Respondent’s motion mav state a claim upon which relief can
be granted, as to arrears alleged to have accumulated after January 31,2001, the issue
remains as to whether the dismissal of the Respondent’s motion as to that claim should
be with or without prejudice.
24. The County and the Petitioner allege that the Respondent owes arrears in
excess of $100,000.
25. The last payment of any kind toward the arrears was a tax intercept in March
2008 for just over $2000.
26. There is a contempt action pending in California, where the Respondent lives,
against the Respondent for willful nonpayment.
27. The California child support authority has declined to proceed further with that
action until the Respondent’s present action to determine the amount of arrears is
resolved.
28. As the result of the Respondent's motions to determine arrears the California
contempt action has been delayed by at least a year.
29. And, based upon the Respondent's representations that he was going to file
a motion, the delay appears to have been closer to 2 years.

-

30. In addition to not receiving the money owed to her and the emotional toll of
having this matter drag on, the Respondent's repetitive actions to determine arrears are
preventing what is hopefully an effective enforcement tool from going forward.
31. One concern for the Court is that allowing the Respondent to again file the
motion would result in further delayrin collecting the child support owed to the Petitioner.

3

• r*r

32. If the Respondent is to be allowed to refile, he should be required to deposit a
sum of money toward arrears to ameliorate the effects of any delay.
33. The Court does not have any income information available for the
Respondent.
34. However, based upon the large amount of arrears and die fact drat a further
motion, together with applicable appeal periods, could delay the contempt proceedings
by another year, the Respondent should be required to deposit $10,000 against his
arrears as a condition of again filing a motion to determine arrears.
Based upon the foregoing Findings of Fact, the Child Support Magistrate makes
the following:
CONCLUSIONS OF LAW
1. This is a IV-D case pursuant to Minn. Stat § 518A.26, subd. 10.
2. The Child Support Magistrate has jurisdiction in this matter pursuant to Minn.
Stat. § 484.702, subds. 1 and 3 and Minn. Gen. R. Prac. 353.01.
3. The Respondent’s motion does not state a claim upon which relief can be
granted as to arrears through January 31,2001.
4. The dismissal of the Respondent’s request to determine arrears which may
have accrued after January 31, 2001 should be dismissed without prejudice, but with
conditions.
Based upon the foregoing Findings of Fact and Conclusions of Law, the Child
Support Magistrate makes the following:

QBPEB
1. The Respondent's motion to determine arrears which accrued through
January 31, 2001 is DISMISSED for failure to state a claim upon which relief can be
granted.
2. The Respondent's motion to determine arrears which accrued after January
31,2001 is DISMISSED without prejudice, but with conditions upon refilling.
3. If the Respondent chooses to renew his motion to determine arrears which
accrued after January 31,2001 he must:
• Serve and file his motion within 30 days of the entry of this order; and,
• Deposit $10,000 with the Office of Child Support as a payment toward
arrears to be held pending resolution of the Respondent’s motion.
4. A copy of this order shall be made upon the parties by first class U.S. mail at
the last known mailing addresses, or upon their attorneys, which shall be due and
proper service for all purposes.

4

..

IT IS SO ORDERED.

Dated:

COLIA F. CEISEL
Child Support Magistrate

v5T 200<f

'SBRjlby-y^.Mail
LFpJetvAttv)
Date

5

rv

Ou>

APPENDIX A
NOTICE IS HEREBY GIVEN TO THE PARTIES:
I. PAYMENTS TO PUBLIC AGENCY. According to Minnesota Statutes, section 5 ISA.50, payments ordered
for maintenance and support must be paid to the Minnesota child support payment center as long as the person entitled to
receive the payments is receiving or has applied for public assistance or has applied for support and maintenance collection
services. Parents mail payments to: P.O. Box 64326, St Paul, MN 55164-0326. Employers mail payments to: P.O. Box
64306, St Paul, MN 55164.
0. DEPRIVING ANOTHER OF CUSTODIAL OR PARENTAL RIGHTS-A FELONY. A person may be
charged with a felony who conceals a minor child or takes, obtains, retains, or fails to return a minor child from or to the
child's parent (or person with custodial or parenting time rights), according to Minnesota Statutes, section 609.26. A copy of
that section is available from any court administrator.
HL NONSUPPORT OF A SPOUSE OR CHILD - CRIMINAL PENALTIES. A person who fails to pay
court-ordered child support or maintenance may be charged with a crime, which may include misdemeanor, gross
misdemeanor, or felony charges, according to Minnesota Statutes, section 609375. A copy ofthat section is available from
any district court clerk..
A.

B.
C.

D.

E.
F.
G.

h.

i

L
J.
K.

IV. RULES OF SUPPORT, MAINTENANCE, PARENTING TIME.
Payment of support or spousal maintenance is to be as ordered, and die giving of gifts or making purchases of food,
clothing, and the like will not fulfill the obligation.
Payment of support must be made as it becomes due, and failure to secure or denial of parenting time is NOT an
excuse for nonpayment, but the aggrieved party must seek reliefthrough a proper motion filed with the court
Nonpayment ofsupport is not grounds to deny parenting time. The party entitled to receive support may apply
for support and collection services, file a contempt motion, or obtain a judgment as provided in Minnesota
Statutes, section 548.091.
The payment of support or spousal maintenance takes priority over payment of debts and other obligations.
A party who accepts additional obligations of support does so with the full knowledge of tire party's prior obligation
under this proceeding.
Child support or maintenance is based on annual income, and it is the responsibility of a person with seasonal
employment to budget income so that payments are made throughout the year as ordered.
A Parental Guide to Making Child-FocusedParenting-Time Decisions is available from any court administrator.
The nonpayment of support may be enforced through the denial of student grants; interception of state and federal
tax refunds; suspension of driver’s, recreational, and occupational licenses; referral to the department of revenue or
private collection agencies; seizure of assets, including bank accounts and other assets held by financial institutions;
reporting to credit bureaus; interest charging, income withholding, and contempt proceedings; and other enforcement
methods allowed by law.
The public authority may suspend or resume collection of the amount allocated for child care expenses if the
conditions of Minnesota Statutes, section 518A.40, subdivision 4, are met.
The public authority may remove or resume a medical support offset if tile conditions of section 518A.4J,
subdivision 16, are met
The public authority may suspend or resume interest charging on child support judgments ifthe conditions of section
548.091, subdivision la, are met

V. MODIFYING CHILD SUPPORT. If either the obligor or obligee is laid off from employment or receives a
pay reduction, child support may be modified, increased, or decreased. Any modification will only take effect when it is
ordered by the court, and will only relate back to the time that a motion is filed. Either fee nhlignr or obligee may file a
motion to modify child support, and may request the public agency for help. UNTIL A MOTION IS FILED, THE CHILD
SUPPORT OBLIGATION WILL CONTINUE AT THE CURRENT LEVEL. THE COURT IS NOT PERMITTED TO
REDUCE SUPPORT RETROACTIVELY.
VL PARENTAL RIGHTS FROM MINNESOTA STATUTES, SECTION 518.17, SUBDIVISION 3.
UNLESS OTHERWISE PROVIDED BY THE COURT:
A.
Each party has the right of access to, and to receive copies of school, medical, dental, religious training, and other
important records and information about the minor children. Each party has fee right of access to information
FAM301

State

ENG

RevOIXU

www.mneaurts.mw/fomis

Page 1 of2

B.

C.

D.

regarding health or dental insurance available to the minor children. Presentation of a copy of this order to the
custodian ofa record or other information about the minor children constitutes sufficient authorization for the release
ofthe record or information to the requesting party.
Each party shall keep the other informed as to the name and address of the school of attendance of the minor
children. Each party has the right to be informed by school officials about the children's welfare, educational
progress and status, and to attend school and parent teacher conferences. The school is not required to hold a
separate conference for each party.
In case of an accident or serious illness of a minor child, each party shall notify the other party of the accident or
illness, and the name of the health care provider and the place oftreatment
Each party has the right of reasonable access and telephone contact with the minor children.

Vn. WAGE AND INCOME DEDUCTION OF SUPPORT AND MAINTENANCE. Child support and / or
spousal maintenance may be withheld from income, with or without notice to the person obligated to pay, when the
conditions of Minnesota Statutes, section 518A.53, have been met. A copy of tint section is available from any court
administrator.
VIII. CHANGE OF ADDRESS OR RESIDENCE. Unless otherwise ordered, each party shall notify foe other
party, foe court, and the public authority responsible for collection, ifapplicable, ofthe following information within ten days
of any change: residential and mailing address, telephone number, driver's license number, social security number, and name,
address, and telephone number of foe employer.
DL COST OF LIVING INCREASE OF SUPPORT AND MAINTENANCE. Basic support and / or spousal
maintenance may be adjusted every two years based upon a change in foe cost of living (using the U.S. Department of Labor,
Bureau of Labor Statistics, consumer price index Mpls. St. Paul, for all urban consumers (CPI-U), unless otherwise specified
in this order) when tire conditions of Minnesota Statutes, section 518A.75, are met. Cost of living increases are
compounded. A copy of Minnesota Statutes, section 518A.75, and forms necessary to request or contest a cost of living
increase are available from any court administrator.
X. JUDGMENTS FOR UNPAID SUPPORT; INTEREST. ACCORDING TO MINNESOTA STATUTES,
SECTION 548.091:
A.
If a person fails to make a child support payment, the payment owed becomes a judgment against foe person
responsible to make the payment tty operation of law on or after foe date the payment is due, and foe person entitled
to receive the payment or the public agency may obtain entry and docketing of foe judgment without notice to the
person responsible to make foe payment
B.
Interest begins accruing on a payment or installment of child support whenever the unpaid amount due is greater
than foe current support due.
XL JUDGMENTS FOR UNPAID MAINTENANCE. A judgment for unpaid spousal maintenance may be
altered and docketed when the conditions of Minnesota Statutes, section 548.091, are met A copy of that section is
available from any court administrator.
*.f-

i

XH. ATTORNEY FEES AND COLLECTION COSTS FOR ENFORCEMENT OF CHILD SUPPORT. A
judgment for attorney fees and other collection costs incurred in enforcing a child support order will be ottered against foe
person responsible to pay support when the conditions of Minnesota Statutes, section 518A.735, are met A copy of that
section and forms necessary to request or contest these attorney foes and collection costs are available from any court
administrator.
XHL PARENTING TIME EXPEDITOR PROCESS. On request of either party or on its own motion, the court
may appoint a parenting time expeditor to resolve parenting time disputes under Minnesota Statutes, section 518.1751. A
copy of that section and a description of the expeditor process is available from any court administrator.
XIV. PARENTING TIME. REMEDIES AND-PENALTIES. Remedies and penalties for wrongful denial of
parenting time are available under Minnesota Statutes, section 518.175, subdivision 6. These include compensatory
parenting time; civil penalties; bond requirements; contempt; and reversal of custody. A copy of that subdivision and forms
for requesting relief are available from any court administrator.
(SCAOm.oi/DMK)
FAM301

State

ENG

Rev 01/08

www.mneouite.aQv/hrms

Page 2 of 2

State of Minnesota
Ramsey County

FILE COPY

District Court
Second Judicial District
Court RIe Number: 62-F4-87-0237981
Case Type: Dissolution with Child

Notice of
Filing of Order and
Right to Review or Appeal
□ and Entry of Judgment
□ and Docketing of
Judgment

In the Marriage Of ROSEMARY CATHERINE SAWYER vs JAMES ABBOTT SAWYER
You are notified that on January 05,2009 the following occurred:
pt~[ The attached order was filed. The order is final and effective as of the date it was signed by the
child support magistrate, referee, or district court judge.
□ The attached partial paternity order was filed in the above-entitled matter. Only those issues
permanently decided and/or agreed upon by file parties are final and effective as of the date file
partial paternity order was signed by the child support magistrate, referee, or district court judge.
□ Judgment was duly entered In the amount of $
□ Judgment was docketed In the amount of $
Notice of Rights Regarding Review and Appeal
You have a right to bring a Motion to Correct Clerical Mistakes, a Motion for Review, a Combined Motion,
or you may appeal the attached decision and order directly to the Court of Appeals. Except for appellate
procedures, instructions for each option are set forth below.
NOTE: If the attached order is a partial paternity order, you have the right to bring a Motion to Correct
Clerical Mistakes on any part of the order. You may only bring a Motion for Review or an appeal on matters
whwe the decision by the court is final. If a matter is only temporarily decided, such as temporary child
support or temporary physical custody, you do not have the right to bring a Motion for Review or appeal.
Correction of Clerical Mistakes
Right to Request Correction of Clerical Mistakes: If you believe that the attached order has
clerical mistakes, typographical errors, or errors In mathematical calculations, you have a right to
request that those mistakes be corrected. You may obtain a form entitled "Motion to Correct
Clerical Mistakes" from the Court Administrator. The form Indudes step-by-step instructions for
how to do each of the things listed below. Zf you decide to ask the court to correct the
mistake, you must do ALL of the following as soon as possible after you discover the
mistake (If you fall to complete a, b, and c as listed below, your request will be
denied):
a.
Have a copy of the “Motion to Correct Clerical Mistakes” served on each of the other parties,
including the county attorney’s office, by U.S. mail or by personal service. You cannot serve

MNC1S: Notice of Filing Order - Notice of Entzy

C5X2005 State ENG Rev 8/05

!

b.
c.

d.

the papers yourself but must have someone else over the age of 18 who is not a party to the
case to serve the papers;
File with the Court Administrator the original “Motion to Correct Clerical Mistakes”;
File with die Court Administrator proof of service of die motion upon each of die other parties and the
county attorney’s office; and
If you want to submit a transcript of die hearing as allowed under Rule 366 of the Expedited Child
Support Process, complete a “Request for Transcript” form available from the Court Administrator
and file it with the court

Right to Respond to Request to Correct Clerical Mistakes: If another party decides to ask
the court to correct clerical mistakes, you will receive a copy of that party's “Motion to Correct
Clerical Mistakes." If you receive a "Motion to Correct Clerical Mistakes", you may, but are not
required to, respond to the motion; You may obtain a “ResponseJo Motion to Correct Clerical
5 Mistakes" form1 from the Court Administrator. The form includes step-by-step instructions
explaining how to do each of the things listed below. If you decide to respond, you must do
ALL of the following within ten (10) days of the date the other party served you with the
Motion to Correct Clerical Mistakes (ifyou fail to complete a, b, and c as listed below,
your response willnot be considered):
a.

b.
c.

Have a copy of the “Response to Motion to Correct Clerical Mistakes” served on each of the other
parties, including the county attorney’s office bylLS. mail or by personal service. You cannot serve the
papers yourself but must have someone else over die age of 18 who is not a party to the case serve die
papers;

Rle with the Court Administrator the original “Response to Motion to Correct Clerical
Mistakes";
File with the Court Administrator proof of service of the responsive motion upon the other
parties, including the county attorney's office; and

d.

If you want to submit a transcript of the hearing as allowed under Rule 366 of the Expedited Child
Support Process, complete a “Request for Transcript" form available from the Court Administrator and
file it with die court.
Review of Decision and Order
Right to Request Review of Decision and Order; If you believe that the attached decision and order is
incorrect, you have a right to request review of the decision and order. You may request die review to be
done either by the child support magistrate who issued the order or by a district court judge. You may obtain
a “Motion for Review” form from the Court Administrator drat includes step-by-step instructions for how to
do each of die things listed below. If yon decide to request a review, you must do ALL of the following
on or before the following date: January 30,2009 {ifyou fad to complete a, b, c, and d as listed below
by this date, your request will be denied):
Have a copy of the “Motion for Review” served on die other parties, including the county attorney’s
a.
office, by U.S. mail or by personal service. You cannot serve die papers yourself but must have
someone else over die age of 18 who is not a party to the case to serve foe papers;

b.
c.
d.
e.

Rle with the Court Administrator the original “Motion for Review";
Rle with the Court Administrator proof of service of the motion;
Pay any filing foes to the Gourt Administrator; and
If you want to submit a transcript of the hearing as allowed under Rule 366 of the Expedited
Child Support Process, complete a "Request for Transcript" form available from the Court
Administrator and file it with the court

Right to Respond to Request for Review: If another party decides to ask the court to review the attached
decision and order, you will receive a copy of that party’s “Motion for Review.” If you receive a Motion for
Review, you may, but are not required to, respond to that motion. If you choose to respond, you may obtain
a “Response to Motion for Review / Counter Motion” form from the Court Administrator which includes
step-by-step instructions for how to do each of the things listed below. If yon deride to respond, and you
MNCIS: Notice ofRling Order - Notice of Entry

CSX2005 State ENO Rev 8/05

were PERSONALLY served with the Motion for Review, yon must do ALL of foe following listed below
on or before foe following date: February 09,2009.
If yon decide to respond and yon were served with foe Motion for Review BY UJS. MAIL, yon must do
ALL of foe following on or before foe following date: February 12,2009.
Note; Ifyou fall to complete a, b, c, and d as listed below, your response may not be considered.
a.
Have a copy of foe “Response to Motion fen Review / Counter Motion” served on foe other parties,
including foe county attorney’s office, by U.S. mail or by personal service. You cannot serve foe papers
yourself but must have someone else over foe age of 18 who is not a party to foe case to serve foe
papers;

b.
c.
d.
e.

File with the Court Administrator the original "Response to Motion for Review / Counter
Motion";
File with the Court Administrator proof of service of the responsive motion;
Pay any filing fees to the Court Administrator; and
If you want to submit a transcript of the hearing as allowed under Rule 366 of the Expedited
Child Support Process, complete a "Request for Transcript" form available from the Court
Administrator and filed it with the court

Combined Motion to Correct Clerical Mistakes and Review Order
If you intend to bring or respond to both a Motion to Correct Clerical Mistakes agd a Motion for Review, foe
combined motion must be brought by foe date listed on page 2, under the Right to Review of Decision and
Order paragraph. You CANNOT bring foe motions separately. You CANNOT bring first one motion and then
foe other motion.
Submission of Additional Evidence and Appearance Before Court Not Allowed
If you bring or respond to any type of motion:
• You CANNOT submit any new evidence or information unless foe court grants your request to submit
additional evidence or information.
• You DO NOT have a right to a new hearing, and you WILL NOT be allowed to appear before the court,
unless the court orders a new hearing.
Right to Appeal to Court of Appeals

You have a right to appeal the attached decision and order to the Court of Appeals. Any appeal
must be brought within sixty (60) days of the date this notice was mailed to you. If
you fail to bring your appeal within the sixty (60) days, the Court of Appeals will deny
your appeal. The sixty (60) days will stop running if a Motion to Correct Clerical Mistakes or a
Motion for Review Is properly served and filed as required in this Notice.
Please Note: The Court Administrator does not have any appellate forms and cannot help you
with questions about the appeal process. You must contact the Court of Appeals and refer to the
Rules of Civil Appellate Procedure for answers to questions you may have about filing an appeal.
Pursuant to Rule 365.04 of foe Expedited Child Support Process, a copy of this Notice has been served by
U.S. mail upon foe county attorney and upon each party at the party’s last known address or, if represented,
upon the party’s attorney.

Dated: 1/7/2009

Tama L. Hall

Court Administrator
Ramsey County District Court
15 West Kellogg Boulevard Room 160
St Paul MN 55102
651-266-2842
cc: ROSEMARY CATHERINE SAWYER
JAMES ABBOTT SAWYER
MNCIS: Notice of Filing Order— Notice of Entry

CSX2005 State ENG Rev 8/05

i

*

f

«

Ramsey County Oiild Support

!

«!
!

MNC1S: Notice of Filing Order - Notice of Entry

L

CSX2005 State ENG Rev 8/05

,r

FEB 0 S 2009

r

V

r
c-

Tams L. Hait. Ceuti AdrntAtslfilef,
Ra/nsey District Court. Slate of MinfUKi&l
Does Hereby certify (ha, (he attache<,
Instrument ts a true and correct copy

=^r;s>t
tamaa-

By
file No.

4—Deputy

'

r
FL-410

ATTORNEY OR PARTY WITHOUT ATTORNEY (Name, state bar number, and address):

FOR COURT USE ONLY

NOEL C. MURRAY. LEAD CHILD SUPPORT ATTORNEY

"Santa cruz/san benito county department of child support services
420 MAY AVE
SANTA CRUZ CA 95060-2041

0870001960-01
PAX NO. (Optional):

TELEPHONE NO.(OptlIonal): (866) 001-3212

(831)454-3752

ATTORNEY FOR (Name): Under Family Code §§ 17400 & 17406

pi

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SANTA CRUZ
STREET ADORESS: 1 SECOND ST RM 300

L E

MAILING ADDRESS: 1 SECOND ST RM 300

JUN 2 6 2013

CITY AND ZIP CODE: WATSONVILLE 05076-5139

.

BRANCH NAME: WATSONVILLE BRANCH COURTHOUSE

ALEX GALVO, CLERK ff
BY
DER OtY ^JrACRUZCOUNTY

PETITIONER/PLAINTIFF: ROSEMARY CATHERINE SAWYER
RESPONDENT/DEFENDANT: JAMES ABBOTT SAWYER

""

OTHER PARENT:

ORDER TO SHOW CAUSE AND
AFFIDAVIT FOR CONTEMPT
NOTICE)
A contempt proceeding Is criminal In nature. If the court finds you In
contempt, the possible penalties include jail sentence, community
service, and fine.

CASE NUMBER:

FL007773

(AVISO!
Un proceso Judicial por desacato es de indole criminal. SI la corte
le declare a usted en desacato, las sanciones poslbles incluyen
penas de prisl6n y de servlclo a la comunldad, y multas..

You are entitled to the services of an attorney who should be
consulted promptly in order to assist you. If you cannot afford an
attorney, the court may appoint an attorney to represent you.

listed tlene derecho a los servlclos de un abogado, a quien debe
consultar sin demon para obtener ayuda. SI no puede pagar a un
abogado, la corte podrfi nombrar a un abogado para que le
represente.
1. TO CITEE (name ofperson you allege has violated the orders): JAMES ABBOTT SAWYER
2- YOU ARE ORDERED TO APPEAR IN THIS COURT AS FOLLOWS, TO GIVE ANY LEGAL REASON WHY THIS COURT SHOULD
NOT FIND YOU GUILTY OF CONTEMPT, PUNISH YOU FOR WILLFULLY DISOBEYING ITS ORDERS AS SET FORTH IN THE
AFFIDAVIT BELOW AND ANY ATTACHED AFFIDAVIT OF FACTS CONSTITUTING CONTEMPT; AND REQUIRE YOU TO
PAY, FOR THE BENEFIT OF THE MOVING PARTY, THE ATTORNEY FEES AND COSTS OF THIS PROCEEDING.
a. Date: 09/18/2013
b. Address of court
Date:

Time: 01:30 PM
| X I same as noted above |

JUN 2 6 2013

Dept.: D

Rm.:

| other (specify):

(S

he&ther

D. MORSE

JUDICIAL OfFICER

AFFIDAVIT SUPPORTING ORDER TO SHOW CAUSE FOR CONTEMPT
3. I X I An Affidavit of Facts Constituting Contempt (form FL-411 or FL-412) is attached.
4. Citee has willfully disobeyed certain orders of this court as set forth in this affidavit and any attached affidavits.
5. a. Citee had knowledge of the order in that
X
was present in court at the time the order was made.
(1) ___citee
(2) f Xl citee was served with a copy of the order.
(3)
citee signed a stipulation upon which the order was based,
other (specify):
(4)

I
I Continued on Attachment 5a(4)
b. Citee was able to comply with each order when it was disobeyed.
6. Based on the instances of disobedience described in this affidavit
a. I
11 have not previously filed a request with the court that the citee be held in contempt
b. [ X 11 have previously filed a request with the court that the citee be held in contempt (specify date filed and results):
Filed 11/15/11-Contempt Purged when respondent paid $1,000.00. Filed 11/08/10 Purged when respondent paid $1,400
|

| Continued on Attachment 6b.

Form Adopted for Mandatory Use
Judicial Couitcfl of Cafifomla
FL-410 [Rev. January 1.2003]

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR CONTEMPT

Page 1 of 4
FamBy Coda, § 292;
Cod© of CM Procedure. §§ 1211.5,2015.5
www.couftinfo.ca g
ov

ENFTM3

1*

PETITIONER/PLAINTIFF: ROSEMARY CATHERINE SAWYER

CASE NUMBER:
FL007773

RESPONDENT/DEFENDANT: JAMES ABBOTT SAWYER
OTHER PARENT:

7. I

I Citee has previously been found in contempt of a court order (specify case, court, date):

I
I Continued on Attachment 7.
8. | X I Each order disobeyed and each instance of disobedience is described as follows:
a- I X I Orders for child support, spousal support, family support attorney fees, and court or other litigation costs (see
attached Affidavit of Facts Constituting Contempt (form FL-411)).
h- I

I Domestic violence restrainingonders and child custody and visitation orders (see attached Affidavit of Facts
Constituting Contempt (form FL-412)).

c. I

I injunctive or other order (specify which order was violated, how the order was violated, and when the order was
violated):

I
I Continued on Attachment 8c.
d. | x I Other material facts, including facts indicating that the violation of the orders was without justification or excuse
(specify):
The SANTA CRUZ County Department of Child Support Services is providing support enforcement services in this
case. JAMES A SAWYER, the judgment debtor, is delinquent in the payment of his/her court ordered support obligation

(s).

I
e. I

I Continued on Attachment 8d.
11 am requesting that attorney fees and costs be awarded to me for the costs of pursuing this contempt action. (A
copy of my Income and Expense Declaration (form FL-150) is attached.)

WARNING: IF YOU PURSUE THIS CONTEMPT ACTION, IT MAY AFFECT THE ABILITY OF THE DISTRICT
ATTORNEY-TCFPROSECUTE THE CITEE CRIMINALLY FOR THE SAME-VIOLATIONS,----------------------------

I declare under penalty of perjury under the laws of the State of California that the foregoing is true and correct
Date: 06/20/2013

A
CATHY J MONTGOMERY
(TYPE OR PRINT NAME)

FL-410 [Rev. January 1,2003]

(SIGNATURE)

Pag©2of4

ORDER TO SHOW CAUSE AND AFFIDAVIT FOR CONTEMPT
• ENFTM3

¥

FL-411
CASE NUMBER:

_

PETITIONER/PLAINTIFF: ROSEMARY CATHERINE SAWYER

FL007773

RESPONDENT/DEFENDANT: JAMES ABBOTT SAWYER
OTHER PARENT:
. 4 t
AFFIDAVIT OF FACTS CONSTITUTING CONTEMPT
Financial and Injunctive Orders
Attachment to Order to Show Cause and Affidavit for Contempt (form FL-410)
spousal support, family support, attorney fees, and court and litigation costs (separately itemize each
1. a. Orders for child support,
default on Installment payments):

TYPE OF ORDER AND
DATE FILED

DATE DUE

ORDER AFTER HEARING
FILED 03/13/2009

1. 05/2013
2. 04/2013
3. 03/2013
4. 02/2013

SANTA CRUZ County
Department of Child Support
Services
CALIFORNIA STATE
DISBURSEMENT UNIT
PO BOX 989067 WEST
SACRAMENTO CA
95798-9067

5. 01/2013
6. 12/2012
7.11/2012
8. 10/2012
9. 09/2012

11.07/2012
12.06/2012

$200.00

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00
$200.00

$200.00

$0

$200.00

$200.00

$0

$200.00
TOTAL
AMOUNT
PAID

Summary of contempt counts alleged (including all attachments):
Child support:
Spousal support:
Family support
Attorney fees:
Court and other costs:
Total

DUE

$0

TOTAL
AMOUNT
ORDERED

I Continued on Attachment 1a.

AMOUNT

PAID

$200.00

10.08/2012

I

AMOUNT

AMOUNT
ORDERED

PAYABLE TO

TOTAL
AMOUNT
DUE

$2,400.00

$0.00

$2,400.00

$2,400.00

$0.00

$2,400.00

b. |

| Other orders (specify which order was violated, how the order was violated, and when the violation occurred):

c. I

l Other material facts (specify):

|

| Continued on Attachment 1b

|

| Continued on Attachment 1c

I declare under penalty of penury under the laws of the State of California that the foregoing^true and correct
Date: 06/20/2013
CATHY J MONTGOMERY

►

Vj (SIGNATURE)

(TYPE OR PRINT NAME)
Form Adopted for Mandatory Use
Judicial Council of California
FL-411 [Rev. January 1, 2003J

AFFIDAVIT OF FACTS CONSTITUTING CONTEMPT
Financial and Injunctive Orders

1)

1 OM

Family Code 1282;
Code of Civil Procedure.
H1209,1211,1211.5, 2015.5
www.courtinfo.ca.gov

ENFTM3

/-xSf

l
2
3
4

MITCHELL PAGE, SBN 062344
PAGE & DUDLEY
Attorneys at Law
605 Center Street
Santa Cruz, CA 95060-3804

I

*ans8

|#J«»

S'. DOLORES SANDOVAL
DEPUTY SANTA CRUZ COUNTY

Telephone: (831) 429-9966
Facsimile: (831) 427-2132

5
6

Attorney for Respondent JAMES ABBOTT SAWYER

7
8

IN THE SUPERIOR COURT OF THE STATE OF CALIFORNIA

9

IN AND FOR THE COUNTY OF SANTA CRUZ

10
In re the marriage of:
11

Petitioner: ROSEMARY C. SAWYER,
12

Case No. FL 007773
)

)

and
13
14

Respondent: JAMES ABBOTT SAWYER.')
____________ _____________________ )

15
16

HEARING BRIEF
Date: '
Time:
Z3 o P
Dept: B

31 'f
.

RESPONDENT’S CONTENTION
It is Respondent’s contention that the Department of Child Support Services should be

17

estopped from collecting any payments on the alleged child support arrearage in this case. This

18

court ordered the Department of Child Support Services to reconcile payments and credits with

19

the original Minnesota court order re: arrearage, which would have demonstrated satisfaction of

20

the original child support order.

21
22

PROCEDURAL STATEMENT
Respondent, James Sawyer, has been cited for contempt for failure to make installment

23

payments to the Department of Child Support Services as ordered, on a child support debt

24

established by a Minnesota judgment.

25
26

Respondent claims to have documentation of payments completely satisfying his child
support obligation. His legal pursuit of that claim in the Minnesota courts was, ultimately,

27
28

In re marriage of Sawyer
Case No. FL007773

Hearing Brief

1

dismissed on procedural grounds when Respondent’s attorney failed to meet filing deadlines and

2

proceed to a hearing on the merits. The Minnesota State Court of Appeal so ruled in September,

3

2009.

4

Through RURESA the Minnesota child support action had been filed in Santa Clara

5

County, California, in 1989. The court file reflects that in the first two months of 1990, Santa

6

Clara County acknowledged at least $7,000.00 in payments. Effective January 1,1991, a wage

7

assignment was imposed upon Respondent’s paychecks.

8

In August 1997, the collection action was transferred to Santa Cruz County. Respondent,

9

in pro per, requested a hearing on the registration of the support order, alleging that it was based

10

upon fraud and questioning the assertion of arrearage. A hearing was set, and the wage

11

assignment was suspended pending that hearing. When the hearing was finally held, in January,

12

2000, respondent’s objection were overruled and the registration of the foreign order confirmed.

13

In January, 2001, there was a change in child custody, which resulted in an order of child

14

support in respondent’s favor and an offset of some of the alleged arrearage. In February, 2001,

15

the Minnesota trial court set arrearages at $89,582.15, without any apparent reconciliation with

16

the collection actions of Santa Clara or Santa Cruz Counties.

17

On September 11,2006, this Court ordered the Department of Child Support Services to

18

reconcile the Minnesota order with the Santa Clara County collection action and suspended

19

arrearage payments pending that reconciliation.

20

On December 3,2007, Respondent was again before the Court and was ordered to pay

21

$100.00 per month on the arrearage. No reconciliation of payments made on the Minnesota Court

22

order was ever delivered to the Court, nor does it appear that the Court ever inquired about the

23

reconciliation it had ordered.

24

25
26

POINTS AND AUTHORITIES
A party may be forbidden to show the existence of a fact when, by his or her past
conduct,... it would work an injustice and injury to an adversary to permit the party to do so.

27
28

In re marriage of Sawyer
Case No. FL007773
Hearing Brief

2

1

Allen v. Hance <1911) 161 Cal. 189.

2

ELEMENTS: (a)

3

(b)

with knowledge, actual or virtual, of the facts

4

(c)

to a party ignorant of the truth

5

(d)

with the intention that the ignorant party act on it, and

6

(e)

the party was induced to act.

7

a representation or concealment of material facts

Negligence that is careless and culpable conduct is as a matter of law, equivalent to an

8

intent to deceive and will satisfy the element of fraud necessary to an estoppel.” Crestlinp. v

9

Pacific (1960) 54 Cal.2d 773 at 778 Cal.Rptr. 448. An estoppel may arise from silence where

10
11

there is a duty to speak. Dottamanti v. Lompoc (1956) 143 Cal.App.2d 716,721.
“The government may be bound by an equitable estoppel in the same manner as a private

12

party when the elements requisite to such an estoppel against a private party are present and, in

13

the considered view of the court of equity, the injustice which would result from a failure to

14

uphold an estoppel is of sufficient dimension to justify any effect upon public interest or policy

15

which would result from the raising of an estoppel.” McKnight Ranch v French,^ Tax Board

16

(2003) 110 Cal.App.4th 978,2 Cal.Rptr. 3d 339.

17
18

Specifically, estoppel has been applied against a child support collection agency. In re
marriage of Smith (1989) 209 Cal.App.3d 196.

19

CONCLUSION

20

The Department of Child Support Services, having failed to reconcile Respondent’s

21

payments and credits with the Minnesota court order, as ordered by this court in 2007, should be

22

estopped from collecting any further monies based upon that Minnesota court order.

23

Respectfully submitted,

24
25

Dated: December 18, 2013
MITCHELL PAGE, Attorney for
Respondent
J

26
27
28

In re marriage nf Sawyer
Case No. FL007773
Hearing Brief

3

-<i

1
2
3
4
5

F1 L ED

NOEL MURRAY
LEAD CHILD SUPPORT ATTORNEY
DEPARTMENT OF CHILD SUPPORT SERVICES
420 MAY AVENUE
SANTA CRUZ, CA 95060
Tel. No.: (831) 454-3719, Fax No.: (831)454-3752
AILEEN MADERA-CORREA, CHILD SUPPORT ATTORNEY
STATE BAR NUMBER: 71778
Appearing pursuant to Family Code §§ 17400,17406

DEC 3 ; 2013

----------

iSanta z?:jz county

6
7
8

SUPERIOR COURT OF CALIFORNIA
f

COUNTY OF SANTA CRUZ

9
10
11
12
13
14
15

ROSEMARY C. SAWYER,
Petitioner,
vs.
JAMES ABBOTT SAWYER
Respondent.

)
)
)
)
)
)
)
)
)
}

CASE NO.: FL-007773
D.C.S.S. NO.: 0870001860-01
RESPONSIVE BRIEF
Date: 01-29-2014
Time: 2:30 pm
Dept: D

16
17

PROCEDURAL HISTORY

18

James Sawyer and Rosemary Sawyer were married in 1979. Ms. Sawyer

19

petitioned for divorce in 1987 in Minnesota. On January 20,1989, the parties signed

20
21

and stipulated to a dissolution judgment and decree where Mr. Sawyer was ordered to

22

pay $1,000.00 per month in child support for the parties’ two children. In June 1989 Mr.

23

Sawyer moved to California.

24
25
26

In February 2001, the Minnesota district court issued an order which included a
judgment against Mr. Sawyer in the amount of $89,582.15 in child support arrears. The
parties were given 60 days to come to a difference agreement or for Mr. Sawyer to file

27
28

a Notice of Motion regarding the judgment. Mr. Sawyer did not move the district court

i'r>

<S* ■

1
2
3

nor did the parties come to a different agreement, so the judgment was entered on April
16, 2001. Mr. Sawyer did not appeal the judgment.
Six years after the judgment was entered against Mr. Sawyer, he filed a motion

4
5

6

in May 2007 asking the Minnesota court to find that he owed no arrears.
Throughout 2007, Mr. Sawyer’s motion was continued several times. Eventually,

7

Mr. Sawyer's attorney requested the matter be stricken. On year later, October 2008,

8

Mr. Sawyer again motioned the Minnesota court to make a determination that he owed

9

no arrears. Again, Mr. Sawyer's attorney requested a continuance on the matter. The

10
11

Child Support Magistrate (CSM) denied his continuance. During the hearing in
November 2008, the matter was continued by the CSM to determine whether Mr.

12
13

Sawyer’s motion should be dismissed with or without prejudice. At the second hearing,

14

the CSM issued an order on January 5, 2009, stating the issue to be decided was

15

whether Mr. Sawyer stated a claim upon which relief can be granted. After Mr.

16

Sawyer’s attorney and Ramsey County submitted memoranda on the issue, the CSM

17

determined Mr. Sawyer’s request to have his arrears determined to be zero was not a

18

claim upon which relief could be granted. The Minnesota district court issued a

19
judgment in 2001 and Mr. Sawyer’s request to determine the arrears owed pre-2001
20

21

was an attack on the judgment.

22

Mr. Sawyer appealed the CSM's January 5, 2009 ruling. During oral arguments,

23

Mr. Sawyer’s attorney stated that the payments Mr. Sawyer claimed to have made were

24

made before the 2001 judgment. On September 22, 2009, the Minnesota Court of

25

Appeals affirmed the CSM’s decision not to grant a continuance to dismiss Mr.

26

Sawyer’s claim related to pre-2001 arrears with prejudice. The Court of Appeals

27

28

specifically stated: “The 2001 judgment was a final determination of the arrears that he

2

4.

1

[Mr. Sawyer] owed respondent at that point. His assertion that he paid respondent

2

certain monies before the 2001 judgment is contrary to final determination of the district

3

court that appellant owed respondent $89,582.15. His motion is an attempt to re-litigate

4

an issue that was resolved eight years ago by the district court."

5
POINTS AND AUTHORITIES

6
7
8

UNIFORM INTERSTATE FAMILY SUPPORT ACT (UIFSA) AND THE FULL FAITH
AND CREDIT FOR CHILD SUPPORT ACT (FFACCSOA) APPLY TO THIS CASE
UIFSA took effect in California on January 1,1998 at Family Code §§4900-4976

9
10
11

and while California enacted UIFSA 2001 in 2002 its taking effect is contingent on
Congress’s changing the law. FFACCSOA is found at 28 U.S. C. §1738B. The section

12

was amended by Public Law §104-193 effective August 22 1996 and again by Public

13

Law §105-33. Effective August 5,1997. A recent case has held that Congress did not

14

intend for FFACCSOA to preempt UIFSA and that they should be construed to work in

15
16

harmony. (LeTellier v. LeTellier (Tenn 2001) 40 S.W.3d 490)
Under UIFSA there shall be only one child support order in effect governing the

17
18
19

support obligation of a specific parent for given children. The first state that enters a
valid child support order becomes the Issuing State of the Controlling Order which will

20

be the only prospectively enforceable order. Minnesota issued the only child support

21

order and Minnesota remains the residence of mother. Minnesota continues to

22

exercise exclusive controlling jurisdiction for any modification and prevents any other

23
24
25
26
27

courts from issuing any de novo orders. Family Code §4901 (w) “Support Order1
means a judgment, decree or order, whether temporary, final...for the benefit of a child
that provides for monetary support, ...arrearages or reimbursement and may
include... interest..”

28
3

1
2
3

In this case a judgment was granted against Mr. Sawyer in the amount of
$89,582.15 for child support arrears in 2001. This arrearage judgment of 2001 is
considered a support order. Since 2001, Mr. Sawyer has tried challenging this

4
5
6
7
8
9
10
11

judgment several times in the Minnesota court system and has been unsuccessful.
Minnesota district court and the Minnesota Court of Appeals have found that Mr.
Sawyer is precluded from collaterally attacking the 2001 judgment.
The remedy for legal error is an appeal not a collateral attack. Mr. Sawyer has
certainly pursued his remedies in Minnesota perhaps not a diligently as he should have
nevertheless he cannot pursue a collateral attack in California claiming his rights have
been denied. The decision against Mr. Sawyer rendered by the Minnesota Court of

12
13
14
15
16

Appeals is res judicata and he cannot seek to undermine it. California has no subject
matter jurisdiction to determine the arrears.
California is required under FFACCSOA (Full Faith and Credit for Child Support Act)
to give credit to the Minnesota Judgment.

17
18
19
20
21

ARGUMENT
Mr. Sawyer comes now and seeks to attack the judgment by claiming that the
Department is estopped from enforcing the arrears because it did not “reconcile”
records that it does not have. This is a Minnesota judgment and any money collected

22

by both Santa Clara County and Santa Cruz County is sent to Minnesota who is the

23

custodian of the records. This is not a case of an inter-county transfer where records

24

exist in the same state system. Santa Cruz County is in the responding state to the

25

petition from Minnesota.

26

Minnesota renewed its judgment in March 2, 2011. A copy of the Notice of Entry was

27
served upon the parties. As noted in the documents attached as exhibit A, Mr. Sawyer
28
4

i

1

could have requested a hearing in Minnesota to dispute the calculations should he have

2

chosen to do so. He did not.

3
4

Periodically Minnesota sends an Affidavit of Arrears to Santa Cruz County with an
updated arrears calculation. Minnesota charges interest however the interest rate

5
6
7

8
9
10
11

changes each year. A copy of the most recent Affidavit from Minnesota is attached as
Exhibit B.
As to the purported issue of estoppel even were the Department able to do a

!

‘

reconciliation estoppel would not apply. The court in In Re Marriage of Lugo 170 Cal.
App 3rd 427 (1985) ruled that equitable estoppel or laches would not apply in a case
where aid was expended for the children, “...we are persuaded that neither the doctrine

12
of equitable estoppel nor that of laches has any application to this case. It is well

13
established that an estoppel will not be raised against a county when to do so would nullify

14
"’a strong rule of policy, adopted for the benefit of the public, . . .

15
In the current case the arrears are not owed to State of Minnesota but rather to the

16
17

custodial parent Rosemary Sawyer. Estoppel or laches has no applicability at all. Ms.

18

Sawyer was and is a resident of the State of Minnesota. Minnesota has and has never

19

lost continuing exclusive jurisdiction.

20

CONCLUSION

21

Since the arrears judgment was entered in 2001 and re-entered in 2011 Mr. Sawyer

22

has never timely availed himself of the remedies open to him in Minnesota which

23
24
25

retains continuing exclusive jurisdiction. He continues to propose spurious legal
positions in California in an attempt to re-litigate issues long since decided and time

26

barred. He has chosen to spend his money on lawyers in an attempt to collaterally

27

attack a judgment rather than pay his arrears. Therefore, the Department requests that

28

Respondent’s motion be denied and the matter set for trial.

5

1

Respectfully submitted

2
3

4
.

Dated

AILEEN MADERAtCORREA
CHILD SUPPORT ATTORNEY

5
6
7
8
9
10
11
12

r

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

:,

6

m - * 2011
District Court
Second Judicial District
Court File Number: 62-F4-87-023798 |
........ Case Type: Dissolution with Child

State of Minnesota
Ramsey County

Notice of Entry and Docketing of Judgment
RAMSEY COUNTY CHILD SUPPORT
SO W KELLOGG BLVD STE 415
ST PAUL MN 55102

CA&- O&70OO /gbO-Dj

-spooler! liffloi

In the Marriage of ROSEMARY CATHERINE SAWYER vs JAMES ABBOTT SAWYER
You are hereby notified that a judgment has been entered and docketed in the above entitled
matter.
I..

i Entered Date
■ Docketed Date____
Docketed Time___

. Debtors)_______
i Creditors)___ __
i

_ Judgment Information_
j March 02,2011
! March 22,2011
I 4:51 PM
____ ; JAMES ABBOTT SAWYER.________
[ ROSEMARY CATHERINE SAWYER

Monetary Award:_______ j_______________
Monetary.Amount:
; $115,320.47 _
;

!

?
A true and correct copy of this notice has been served by mail upon the parties. Please be
advised that notices sent to attorneys are sent to the lead attorney only.
Note: Costs and interest will accrue on any money judgment amounts from the date of entry until
the judgment is satisfied in frill.
Dated: March 22,2011

Tama L. Hall
Court Administrator
Ramsey County District Court
15 West Kellogg Boulevard Room 160
St Paul MN 55102
651-266-2842
cS

y3

: i

£S

rp

2:
Ca5
-4
MNCIS-JGM-108

STATE

Notice of Entry and Docketing of Judgment

Revised: 02/2008

rj

u

-H
-<

Page 4 of4

EXHIBIT 'A*
1 of 4

I*

Until or unless income withholding is in effect, all support
payments cure payable through:
Mn Child Support Payment Ctr
PO Box 64326
St Paul MN 55164-0326

Date

3hh I

Stephanie t. S truthers
Child Support Staff
Case: 001071193701
Court File Number: DM-F4-87-23798
County Attorney File #:
Amt$ 115320.47
Support Due to: Rosemary Catherine Sawyer

;
Swom/affirmed before me this
day of
,

■>

•

Signature of Notary 'Public

My commission expires
v CONSTANCE RITA
I Notary PubfoWnnesaa

/> % />> */Z~.

